<html>
<title> - EXPANDING EDUCATIONAL OPPORTUNITY OPPORTUNITY THROUGH SCHOOL CHOICE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]











                         EXPANDING EDUCATIONAL
                           OPPORTUNITY THROUGH
                             SCHOOL CHOICE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, FEBRUARY 3, 2016

                               __________

                           Serial No. 114-37

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-416 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 3, 2016.................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................    01
        Prepared statement of....................................    05
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................    03
        Prepared statement of....................................    05

Statement of Witnesses:
    Bryan, Rob, Hon., a Representative in Congress from the state 
      of North Carolina..........................................    17
        Prepared statement of....................................    19
    Huerta, Luis A., Mr., Professor of Education and Public 
      Policy, Teachers College, Columbia University..............    21
        Prepared statement of....................................    24
    Merriweather, Denisha, Ms., Student, University of South 
      Florida....................................................    34
        Prepared statement of....................................    36
    Robinson, Gerald, Mr., Resident Fellow, American Enterprise 
      Institute..................................................    07
        Prepared statement of....................................    10

Additional Submissions:
    Mr. Huerta:
        Prepared statement of....................................   104
    Mr. Scott:
        Letter dated February 2, 2016 from Americans United (AU).    72
        Letter dated February 2, 2016 from The National Coalition 
          for Public Education...................................    76
        Letter dated February 3, 2016 from National School Boards 
          Association (NSBA).....................................    40
 
                   EXPANDING EDUCATIONAL OPPORTUNITY
                   OPPORTUNITY THROUGH SCHOOL CHOICE

                              ----------                              


                      Wednesday, February 3, 2016

                       House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
HVC-210, Capitol Visitor Center. Hon. John Kline [Chairman of 
the Committee] presiding.
    Present: Representatives Kline, Foxx, Roe, Guthrie, Rokita, 
Heck, Messer, Byrne, Brat, Carter, Bishop, Stefanik, Allen, 
Scott, Hinojosa, Fudge, Polis, Bonamici, Pocan, Takano, 
Jeffries, Clark, Adams, and DeSaulnier.
    Staff Present: Lauren Aronson, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Amy Raaf 
Jones, Director of Education and Human Resources Policy; Nancy 
Locke, Chief Clerk; Dominique McKay, Deputy Press Secretary; 
Krisann Pearce, General Counsel; Alexandra Pena, Intern; Mandy 
Schaumburg, Education Deputy Director and Senior Counsel; 
Juliane Sullivan, Staff Director; Brad Thomas, Senior Education 
Policy Advisor; Sheariah Yousefi, Legislative Assistant; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; 
Austin Barbera, Minority Staff Assistant; Jacque Chevalier, 
Minority Senior Education Policy Advisor; Denise Forte, 
Minority Staff Director; Christine Godinez, Minority Staff 
Assistant; Brian Kennedy, Minority General Counsel; Rayna Reid, 
Minority Education Policy Counsel; Saloni Sharma, Minority 
Press Assistant; Michael Taylor, Minority Education Policy 
Fellow; and Arika Trim, Minority Press Secretary.
    Chairman Kline. A quorum being present, the Committee on 
Education and the Workforce will come to order. Good morning, 
everyone, welcome to today's hearing. I want to thank our 
witnesses for joining us as we discuss ways to expand 
educational opportunity through school choice.
    This committee's work to improve K-12 education has always 
been guided by the belief that every child regardless of where 
they come from or how much money their parents make should 
receive an excellent education.
    Unfortunately, some schools are failing to provide students 
that opportunity. Too many of our nation's students are 
entering high school without the critical skills they need to 
complete their education, and too many graduates are going off 
to college or entering the workforce without the tools they 
need to succeed in life.
    Everyone here agrees our children deserve better. They 
deserve the opportunity to receive a better education and 
pursue a better life. That is why improving K-12 education 
continues to be such an important priority at the federal, 
state, and local levels.
    By empowering parents to do what is best for their child, 
school choice has been an instrumental part of that effort.
    When we passed legislation last year to improve K-12 
education, empowering parents was one of our primary goals 
because we know parents can make the most meaningful difference 
in their child's education.
    Several reforms in the Every Student Succeeds Act help 
parents do what is best for their child's education by 
expanding school choice, reforms such as increasing access to 
quality charter schools and magnet schools, protecting home 
schools from federal interference, and launching a pilot 
program that will encourage excellent schools to enroll harder 
to serve students.
    While these reforms are encouraging, education leaders in 
state capitals and local school districts are the real reason 
why the promise of school choice has touched the lives of so 
many parents and children. The progress we have seen over the 
last 25 years is remarkable.
    The school choice movement began in Milwaukee, Wisconsin in 
1990, where local leaders piloted the first private school 
choice program, known as the Milwaukee Parental Choice Program. 
The pilot provided low income families scholarships to attend a 
quality school.
    Since then, the program has paved the way for thousands of 
students to receive a better education and inspired 27 other 
states to create different types of private school choice 
programs, many of which have been credited with helping 
students graduate not only from high school but from college as 
well.
    My home state of Minnesota was not far behind Milwaukee in 
expanding educational opportunities for students and families. 
We never really consider ourselves behind Milwaukee, but in 
1991, the state passed the nation's first charter school law, 
providing parents an alternative public school option that 
better met their child's needs.
    Today, more than 40 states have passed charter school laws 
opening the doors to thousands of schools that have served 
millions of students.
    These are just a few examples of how school choice is 
helping students and families. Last week marked the 5th Annual 
National School Choice Week, where more than 16,000 events in 
all 50 states showcased the success of school choice from 
private school scholarships and public charter schools, to home 
schooling and education savings accounts.
    In all its forms, school choice has provided real hope to 
mom's, dad's, and children across the country.
    Today, as we learn more about how states and local 
communities are expanding school choice, I encourage my 
colleagues to ask how we can support these efforts and help 
more children receive the education they deserve.
    With that, I will yield to the Ranking Member, Mr. Scott, 
for his opening remarks.
    [The information follows:]

            Prepared Statement of Hon. John Kline, Chairman 
                Committee on Education and the Workforce

    Good morning, everyone, and welcome to today's hearing. I want to 
thank our witnesses for joining us as we discuss ways to expand 
educational opportunity through school choice.
    This committee's work to improve K-12 education has always been 
guided by the belief that every child - regardless of where they come 
from or how much money their parents make - should receive an excellent 
education. Unfortunately, some schools are failing to provide students 
that opportunity. Too many of our nation's students are entering high 
school without the critical skills they need to complete their 
education, and too many graduates are going off to college or entering 
the workforce without the tools they need to succeed in life.
    Everyone here agrees our children deserve better. They deserve the 
opportunity to receive a better education and pursue a better life. 
That's why improving K-12 education continues to be such an important 
priority at the federal, state, and local levels. By empowering parents 
to do what's best for their child, school choice has been an 
instrumental part of that effort.
    When we passed legislation last year to improve K-12 education, 
empowering parents was one of our primary goals, because we know 
parents can make the most meaningful difference in their child's 
education. Several reforms in the Every Student Succeeds Act help 
parents do what's best for their child's education by expanding school 
choice, reforms such as: increasing access to quality charter schools 
and magnet schools; protecting home schools from federal interference; 
and launching a pilot program that will encourage excellent schools to 
enroll harder to serve students.
    While these reforms are encouraging, education leaders in state 
capitals and local school districts are the real reason why the promise 
of school choice has touched the lives of so many parents and children. 
The progress we have seen over the last 25 years is remarkable.
    The school choice movement began in Milwaukee, Wisconsin, in 1990, 
where local leaders piloted the first private school choice program. 
Known as the Milwaukee Parental Choice Program, the pilot provided low-
income families scholarships to attend a quality school. Since then, 
the program has paved the way for thousands of students to receive a 
better education and inspired 27 other states to create different types 
of private school choice programs - many of which have been credited 
with helping students graduate not only from high school, but from 
college as well.
    My home state of Minnesota was not far behind Milwaukee in 
expanding educational opportunities for students and families. In 1991, 
the state passed the nation's first charter school law, providing 
parents an alternative public school option that better met their 
child's needs. Today more than 40 states have passed charter school 
laws, opening the doors to thousands of schools that have served 
millions of students.
    These are just a few examples of how school choice is helping 
students and families. Last week marked the 5th annual National School 
Choice Week, where more than 16,000 events in all 50 states showcased 
the success of school choice, from private school scholarships and 
public charter schools to homeschooling and education savings accounts. 
In all its forms, school choice has provided real hope to moms, dads, 
and children across the country.
    Today, as we learn more about how states and local communities are 
expanding school choice, I encourage my colleagues to ask how we can 
support these efforts and help more children receive the education they 
deserve.
    With that, I will yield to Ranking Member Scott for his opening 
remarks.
                                 ______
                                 
    Mr. Scott. Thank you, Mr. Chairman. Today, we will discuss 
the private school choice initiatives that have proliferated 
throughout the country for the last 20 years.
    As you know, educational funds provided by the Federal 
Government do not exist in a vacuum. Drastic cuts in general 
education budgets in a number of states threaten the ability to 
fully implement initiatives to improve the quality of education 
for students nationwide.
    Today, we have before us yet another challenge to the 
limited pool of funding, one that serves to divert public funds 
to subsidize the private education of a relatively small number 
of children at the expense of a larger majority attending 
public schools.
    More broadly, the legacy of ESEA that improvements in 
education support a basic civil right and should benefit all of 
our children--that concept is at risk.
    Private school choice programs, be they vouchers or tax 
credits and educational savings accounts, purport to be part of 
that same legacy. They also claim to provide the neediest 
children with the ability to make a choice to attend higher 
performing schools beyond their means.
    State-collected data show that more than two-thirds of the 
students in the Wisconsin Choice Program and about half of the 
Indiana voucher recipients were enrolled in private schools 
before they received the voucher. Instead of providing a choice 
to students in underperforming schools, these programs are 
using public money to pay tuition for students already in 
private schools.
    Mr. Chairman, in the early 1990s, this committee had a 
subcommittee hearing in Wisconsin, and information we gleaned 
from that hearing showed that the cost of covering those who 
were already in private schools, the cost of providing them 
with a voucher, would have diverted the equivalent of about 
$25,000 per classroom into private vouchers, denying the people 
in public schools that benefit.
    In addition to these programs not serving a population they 
were legislatively created to support, once advertised as 
protecting a civil right for low-income families and their 
children, private school choice programs in Wisconsin, North 
Carolina, and Florida are raising eligibility requirements to 
emaking tuition assistance available to those from much higher 
income brackets.
    The impact of these changes is not readily apparent 
considering that not all programs require schools to accept 
vouchers as full tuition compensation. The family well below 
the poverty level faces limitations in the choice of schools 
available to them - limitations that families with more 
resources do not suffer.
    An example of this can be found right here in our nation's 
capital where over half of the participants in the D.C. 
Opportunity Program are enrolled in just 8 out of 50 schools. 
Tuition at these schools is entirely covered by the voucher, 
but less than a quarter of all available schools have viable 
options, and the idea that parents have a real choice must be 
called into question.
    Once families overcome barriers to admissions due to 
financial concerns, private school choice sleave them and their 
students without the protections required of public school 
systems enforced by federal statutes.
    Studies have indicated that students in voucher programs 
are less likely to have equitable access to key services such 
as ESOL and special education, services that private schools in 
many states are not obligated to provide.
    Regarding attrition in programs like Wisconsin's Parental 
School Choice Program, one study found that those who leave by 
choice or otherwise tend to be the more disadvantaged than 
those who remain.
    Families are enrolling in private schools with the 
expectation that they will provide greater academic outcomes 
for their families and their children but sadly, this is 
frequently not the case. Evidence of private schools 
participating in choice programs increasing academic 
achievement compared to public schools is limited. number of 
studies in Cleveland, Milwaukee, and Washington, D.C. found no 
positive effects on student achievement as a result of 
participation. In fact, participation in scholarship programs 
in Louisiana was found to have a substantial negative effect on 
academic achievement in math, reading, science, and social 
studies.
    Today, we are left discussing the false choice for families 
in need, one that puts at risk the idea of our shared future 
successes, which is most certain when we invest in equitable 
education and educational opportunities for all students, and 
this may threaten the basic civil rights protections of the 
students that we are trying to protect.
    Mr. Chairman, I look forward to the testimony of our 
witnesses, and yield back the balance of my time.
    [The information follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Good morning, Chairman Kline. Today we will discuss private school 
choice initiatives, which have proliferated throughout the country over 
the last 20 years.
    As you know, educational funds provided by the federal government 
do not exist in a vacuum. Drastic cuts to general education budgets in 
a number of states threaten the ability to fully implement initiatives 
to improve the quality of education for students nationwide.
    Today, we have before us yet another challenge to the limited pool 
of funding, one that serves to divert public funds to subsidize the 
private education of a relatively small number of children at the 
expense of the larger majority attending public schools.
    More broadly, the legacy of ESEA - that improvements to education 
support a basic civil right, and should benefit ALL of our children - 
is at risk. Private school choice programs, be they vouchers or similar 
programs like tax credits and education savings accounts, purport to be 
part of that same legacy. They also claim to provide the neediest 
students with the ability to make a ``choice'' to attend higher-
performing schools beyond their means.
    State-collected data showed that more than two-thirds of students 
in the Wisconsin choice program and half of the Indiana voucher 
recipients were enrolled in private schools before receiving a voucher. 
Instead of providing a choice to students in under-performing public 
schools, these programs are using public money to pay the tuition of 
students already in private schools.
    In addition, these programs are not serving the population they 
were allegedly created to support. Once advertised as protecting a 
``civil right'' for low-income families and their children, private 
school choice
    programs in Wisconsin, North Carolina, and Florida are raising 
eligibility requirements, making tuition assistance available to those 
from higher income brackets.
    If the impact of these changes is not readily apparent, consider 
that not all programs require schools to accept vouchers as full 
tuition compensation. A family well below the federal poverty level 
faces limitations on the choice of schools available to them that 
families with more resources can bypass. An example of this can be 
found right here in our nation's capital, where over half of the 
participants in the D.C. Opportunity program are enrolled in just eight 
schools, out of over 50 total. Tuition at these eight schools is 
entirely covered by the award - when less than a quarter of all 
available schools are viable options, the idea that parents have any 
real choice must be called into question.
    Once families overcome barriers to admission due to financial 
concerns, private school choice programs leave them and their students 
without protections required of public school systems and enforced by 
federal
    statute. Studies have indicated that students in voucher programs 
were less likely to have equitable access to key services such as ESOL 
and special education, services that private schools in many states are 
not obligated to provide. Attrition in programs like Wisconsin's 
Parental School Choice Program, is high, with one study finding those 
who leave - by choice or otherwise - tend to be more disadvantaged than 
those who remain.
    Families are enrolling private schools with the expectation that 
they will provide greater academic outcomes for their children, but 
sadly, that is frequently not the case. Evidence that private schools 
participating in choice programs increase academic achievement compared 
to public schools is limited, and a number of studies in Cleveland, 
Milwaukee, and Washington, D.C. have found no positive effects on 
student achievement as a result of participation. In fact, 
participation in the scholarship program in Louisiana was found to have 
substantial negative effects on academic achievement for math, reading, 
science, and social studies.
    Today we are left with discussing a false choice for families in 
need, one that puts at risk the idea that our shared future success is 
most certain when we invest in equitable educational opportunities for 
all students, and threatens to violate basic civil rights protections.
    Thank you and I yield back the balance of my time.
                                 ______
                                 
    Chairman Kline. I thank the gentleman. Pursuant to
    Committee Rule 7(c), all members will be permitted to 
submit written statements to be included in the permanent 
hearing record, and without objection, the hearing record will 
remain open for 14 days to allow such statements and other 
extraneous material referenced during the hearing to be 
submitted for the official hearing record.
    It is now my pleasure to introduce our distinguished 
witnesses. Mr. Gerard Robinson is a Resident Fellow at the 
American Enterprise Institute here in Washington, D.C. Mr. 
Robinson works on issues relating to school choice, educational 
policy, K-12 education, for-profit schools, community colleges, 
and historically black colleges and universities.
    Before joining AEI, Mr. Robinson served as the Commissioner 
of Education for the State of Florida, and Secretary of 
Education for the Commonwealth of Virginia.
    I will now turn to Dr. Foxx to introduce our next witness.
    Ms. Foxx. Thank you, Chairman Kline. Today, I have the 
honor of introducing a witness hailing from my home State of 
North Carolina, Representative Rob Bryan. He is well qualified 
to serve as a witness on education and school choice as he 
spent his first two years after college in the Teach for 
America Program at a classroom in inner-city Los Angeles. 
Today, he is also a member of BEST North Carolina, where he 
works with the North Carolina Teacher of the Year, James Ford, 
to identify the best evidence based strategies to pay, 
evaluate, and retain teachers.
    Representative Bryan is a member of the North Carolina 
House of Representatives, where he is the chairman of the 
Education Appropriations Subcommittee, and a member of the 
Education Committee. He also co-chaired the North Carolina 
General Assembly's Educator Compensation and Effectiveness 
Taskforce.
    In addition to his work in education, Representative Bryan 
serves as a lawyer at the Womble Carlyle Sandridge & Rice law 
firm. He graduated from fine North Carolina universities, UNC-
Chapel Hill and the Duke University's Law School. He and his 
wife, Dottie have six children and attend Uptown Church. It may 
be his parenting six children that give him the best expertise.
    Chairman Kline. Thank you, Dr. Foxx. Let me resume with the 
introduction for today's witnesses. Dr. Luis Huerta is an 
Associate Professor of Education and Public Policy at Teachers 
College, Columbia University, in New York City.
    I always get a kick out of this. My script actually says 
New York City, New York. We want to be thorough on these 
things.
    He served as a research associate and coordinator for K-12 
education policy research at Policy Analysis for California 
Education Center, and taught in the California Public School 
System for six years.
    Currently, Dr. Huerta's research focuses on education 
policy, decentralized, related to school choice reforms, 
privatization in education, and school finance inequities 
present throughout school reform.
    Ms. Denisha Merriweather is a graduate student at the 
University of South Florida in Tampa, Florida. Ms. Merriweather 
is the recipient of a tax credit scholarship in Florida. She 
attributes her academic and career success to the opportunities 
provided through the Tax Credit Scholarship Program, which 
awarded her the opportunity to attend and graduate from the 
Esprit de Corps Center for Learning in Jacksonville, Florida.
    Let me now ask our witnesses to stand and raise your right 
hand. Thank you.
    [Witnesses sworn.]
    Chairman Kline. Let the record show that the witnesses 
answered in the affirmative.
    Before I recognize each of you to provide your testimony, 
let me briefly explain or remind you of our lighting system. We 
allow 5 minutes for each witness to provide testimony. When you 
begin, the light in front of you will turn green. When 1 minute 
is left, the light will turn yellow. At the 5 minute mark, the 
light will turn red, and I would ask you to please try to wrap 
up your testimony.
    I do not know that I have ever actually gaveled down a 
witness because they did not close in 5 minutes, but if you 
would please try to wrap up in respect for the other witnesses, 
and then when we come to questions and answers, we will hold to 
the 5 minute rule that I have been known to gavel down, 
including on me.
    Okay, I think we are ready to go. Let me recognize Mr. 
Robinson for 5 minutes.

    TESTIMONY OF GERARD ROBINSON, RESIDENT FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Robinson. Good morning, Chairman Kline, Ranking Member 
Scott, members of the committee. My name is Gerard Robinson. I 
am a Resident Fellow at the American Enterprise Institute. What 
I share with you today are my own opinions and do not 
necessarily reflect those of the AEI.
    I have had an opportunity to work in education since 1991, 
and I have seen the impact of school choice policies and 
programs on families and children through the lens of an 
advocate, president of a non-profit organization, state leader 
in Virginia and Florida, and as a researcher.
    I can tell you quite clearly that school choice is not a 
sound bite, it is a social movement. From 1990 to 2015, over 40 
states have introduced different types of school choice 
legislation, both public and private. Today, I will talk 
briefly about four, charter schools, vouchers, tax credits, and 
education savings accounts.
    I have had an opportunity to see all these programs in 
action, and one thing I would like to say up front is there is 
a misconception that school choice only helps wealthy families. 
The reality is families with means already exercise school 
choice. They do so by moving into neighborhoods where they have 
great schools, both public and private. School choice is simply 
expanding the doors of opportunity to families who may not have 
that opportunity.
    One example is in the charter school movement what started 
off initially as an experiment to provide teachers a stronger 
voice and innovative ideas in public schools has now mushroomed 
into a movement where we have 2.9 million students in 43 states 
in 6,723 charter schools, who are doing well.
    Taxpayers and families simply want to know one thing, do 
they work. According to a CREDO study in 2015 that looked at 42 
areas in 22 states, they identified there were at least 40 
days' worth of learning gain for students in math, and 28 days 
in reading. There was particular growth for African American 
students, 36 learning days for math and 26 for reading. Similar 
growth for Hispanic students. We also found growth as well for 
Asian students, particularly in math.
    Frankly, there were also some challenges, our Native 
American students and some of our white students scored less 
well than their peers.
    We move now to vouchers, it was mentioned earlier, vouchers 
in Milwaukee. I had a chance to work there firsthand. Same 
question, is it making a difference? Well, according to at 
least 13 gold standard studies, six have found that the 
students in a voucher program had gains, four in particular 
found there were gains for African American students, two found 
no major differences, and at least one found there were 
negative differences, particularly in the sciences and math, 
and in particular, that was Louisiana.
    Vouchers made a tremendous impact on the lives of students 
in Milwaukee and other areas, and we can talk further about 
that point.
    Tax credits, I would say one of the faster growing 
movements in the private school sector. You now have a number 
of students, over approximately 200,000, who are involved in 
tax credits. The same question, do they work?
    If you take a look at Florida, which has the largest tax 
credit program in the country, over 72,000 students there, Dr. 
Figlio, a professor at Northwestern University, studied a 
program for a number of years, and he found two things. In a 
2014 study, he identified there was at least a year's growth 
for students who were in that program.
    Why is that important? The majority of the students who 
participated in that program, (a) came from lower performing 
public schools and tend to be among the lower performing 
students who left public schools, and secondly, they have an 
opportunity now to see gains in that area.
    Next is education savings accounts. We now have those in 
Florida, Mississippi, Nevada, Tennessee, and it started off in 
Arizona. Smaller movement, but we expect to see some growth in 
that area. There are currently 6,772 students who are involved 
in that program in Florida, Arizona, and Mississippi.
    If there is something that Congress can do to support 
school choice, here are a few examples. Number one is to 
encourage states to take full advantage of language that you 
have in ESSA to allow them to be innovative with public funds.
    Number two is to make Title I funds portable. I know that 
caused a great deal of consternation for the Congress, maybe 
one place where we can find middle ground is to allow states to 
make that decision.
    Third is to make IDEA funds available through a statewide 
voucher. Fourth is to continue to support statewide vouchers. 
Fifth, either direct the Congressional Budget Office or the 
General Accounting Office to figure out what federal 
regulations are in place, to how we can streamline those to 
help funds support ESSAs, and lastly, redesign 529s so families 
can have that information earlier.
    Thank you for your time.
    [The statement of Mr. Robinson follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
    Chairman Kline. Thank you for your testimony. Mr. Bryan?

TESTIMONY OF ROB BRYAN, NORTH CAROLINA HOUSE OF REPRESENTATIVES

    Mr. Bryan. It is an honor for me to be here this morning. 
As you guys are well aware, legislators, like the laborers in 
the Bible parables, arrive at different times and play 
different roles in harvesting and planting crops. By that I 
mean sponsoring and getting good legislation passed.
    Working for school choice and opportunity scholarships in 
particular has been a long labor. In North Carolina, there was 
much sowing of seeds to expand opportunities for parents and 
students across our state.
    As a freshman legislator in 2013, I had the privilege of 
arriving at the right time to be a part of those first fruits 
for school choice in North Carolina.
    By way of my background, and going back about 20 years, I 
was an early Teach for America teacher in a bilingual classroom 
in inner-city Los Angeles. Between my two years of teaching, I 
was the first intern at the Center for Education Reform right 
here in D.C.
    These experiences have shaped my perspective as a 
legislator and made me a fan of expanding school choice 
options, especially for low income families who typically have 
the fewest options.
    All this led me to be the primary sponsor of the 
opportunity scholarship law, which provides roughly 6,000 low 
income students and their families a scholarship to go to the 
school of their choice. Moreover, I am proud that this historic 
legislation had bipartisan leadership, with two Republicans and 
two Democrats serving as the primary sponsors standing together 
to make this opportunity a reality for thousands of students.
    We also had our state's first school choice program, the 
special needs education grant, passed in 2011, which was also 
passed with broad bipartisan support.
    Unfortunately, many establishment folks in education and 
often the press are not fans of opportunity scholarships. They 
outline fears and pessimism, concerns over bad schools and lack 
of regulation, while neglecting our hopes, the opportunities, 
and the evidence.
    As a lawyer, I appreciate looking at the evidence. There 
are significant pieces of evidence that are available in 
discussing opportunity scholarships. I think in reverse order 
of importance, they are that opportunity scholarships actually 
save money, both at the state and local level. They improve 
public schools, and most importantly, they improve outcomes for 
students.
    I think this has been good policy for North Carolina and 
for the rest of the country. Where does this policy intersect 
with reality for the families in each of your districts and 
mine? It is easy for us to fail to recognize the real lives 
impacted. The needs of these families are compelling. The 
opportunity scholarship program and our existing special needs 
program have provided new opportunities and challenges.
    Our special needs scholarship to date, all the funds have 
been used, and there are over 500 families on a waiting list. 
Our opportunity scholarship program has over 13,000 applicants, 
and this figure will go up as the application period has just 
opened again.
    I know numbers are thrown at all of us constantly, but 
please try to individualize these numbers. Think about each one 
of the families that is hoping, waiting for a scholarship. I 
have had to look these parents in the eyes, and it can wait no 
longer. We need to provide choices for them.
    Distinguished members of this committee, we expect options 
and choices in today's world. Many families who can afford to 
are already exercising those options.
    I am happy to say that North Carolina through the passage 
and implementation of these scholarship programs is now 
creating pathways for lower income and working families to 
participate in parental school choice, and they are doing so by 
the thousands.
    Unfortunately, thousands more need your help. Although I am 
here representing the great State of North Carolina, I know 
there are other states like ours who appreciate the fact that 
you, our members of the United States House of Representatives, 
are exploring ideas of how more can be done to help families 
like the ones I have described.
    I am also glad to be here to highlight the impact, the 
positive impact opportunity scholarships are having in North 
Carolina. As I look out my window on the 35th floor, I look 
down and see First Baptist Church. First Baptist Church is now 
housing the Brookstone Schools, which is an academically 
excellent urban Christian school serving low-income families. 
This school has a rich history of engaging, educating, and 
empowering students that come out of poverty and often the most 
dysfunction families and communities.
    Brookstone Schools participate in the opportunity 
scholarship program where they have enrolled 23 students this 
year. I am fortunate to see much of the City of Charlotte out 
my window, but this view of the Brookstone Schools has become 
my favorite.
    Chairman Kline and Ranking Member Scott, and distinguished 
members of the committee, I want to thank you again for your 
initiative in holding this hearing, and I am honored to have 
had the opportunity to share with you this morning.
    [The statement of Mr. Bryan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairman Kline. Thank you, sir. Dr. Huerta?

 TESTIMONY OF LUIS A. HUERTA, ASSOCIATE PROFESSOR OF EDUCATION 
    AND PUBLIC POLICY, TEACHERS COLLEGE, COLUMBIA UNIVERSITY

    Mr. Huerta. Good morning, Chairman Kline, Ranking Member 
Scott, and members of the House Education and Workforce 
Committee. Thank you for the opportunity to speak with you this 
morning.
    My presentation this morning will focus on many of the 
claims promoted by many voucher advocates followed by a 
discussion of assumptions linked to these claims, and more 
importantly, the evidence that provides facts that dispel the 
many claims, some of which we have already heard.
    I will focus on issues of achievement, as well as less 
discussed issues linked to the supply side response and 
potential pitfalls that have not been considered by policy 
makers as voucher and tuition tax credit programs go to scale.
    The first claim that we often hear is that private schools 
are more cost effective and efficient in educating all students 
compared to public schools. This claim equates private school 
tuition often with the cost of actually educating students, and 
assumes that private schools can actually educate all students, 
including special ed, limited English proficient, and other 
students with higher needs, more cost effectively than public 
schools.
    The claim fails to acknowledge that the cost differentials 
including services provided and types of students that are 
served are important in fully accounting for the real cost of 
voucher and tuition tax credit programs.
    Measuring the cost effectiveness of private schools must 
also weigh the quality amount of services provided to all 
students, including the number and types of students, church 
subsidies and endowments that are provided that are not 
accounted for in public accounting, low cost facilities and low 
wage teachers. We know teachers in private schools usually earn 
about 20 to 25 percent less than public schools. The 
administrative and financial burdens of operating these choice 
programs which fall on the state.
    In addition, measuring efficiency must also weigh the 
challenges of taking voucher and tuition tax credit programs to 
scale. Increased demand for private schooling will require 
participating private schools to actually address the needs of 
all students with diversities, and provide services equivalent 
to the public school systems, which could essentially address 
some of these cost differentials.
    The next claim that we often hear is voucher and tuition 
tax credit programs will enhance school choice by making 
private school tuition more affordable and increasing access 
for all students.
    This claim assumes that voucher and tuition tax credit 
programs offer an adequate economic incentive to offset the 
cost of private school tuition for all families. This claim 
fails to acknowledge that the expansion of private school 
choice is more dependent on a criteria schools use in choosing 
students and less dependent on giving parents the ability to 
choose schools.
    Private school tuition rates are not regulated by states, 
nor do states actually collect accurate information on private 
school tuition rates. Without an accurate account of actual 
tuition costs, parents are not informed of additional costs 
they must bear. The scholarship amounts may result in only 
partial payment in some cases, which will threaten the 
guarantee that is linked to most state constitutions, to 
provide a free and public education.
    Another issue that is seldom not talked about is tuition 
elasticity, which is dependent on which private schools 
participate, the subsidy amounts, and the types of students 
that private schools actually serve.
    Because states do not regulate tuition prices, families 
that use the benefit to enter private schools today may not 
have sufficient residual income to pay for tuition later.
    Another issue is supply side response, which is seldom 
accounted for, and that is specifically the extent of open 
seats that are available and how open seats should become made 
available as we go to scale.
    The U.S. Conference of Catholic Bishops has been very 
active in lobbying for tuition subsidies, and it is also 
realistic in acknowledging that a much larger benefit is needed 
to entice families to exit public schools. There have been 
estimates by the Minnesota Catholic Conference that for them to 
actually increase the supply of empty seats, they would have to 
have a subsidy in the amount of $14,000 to $16,000 to actually 
increase capital improvements.
    I am going to switch to academic achievement issues, which 
has already been mentioned. The claim is that private schools 
are more effective than public schools in addressing students' 
academic needs and improving students' educational outcomes.
    This claim assumes that private schools are more effective 
in serving the educational needs of all students, including 
special ed, English language learners, and other students.
    Evidence of voucher program effectiveness remains 
uncertain, and with inconsistent effects on student academic 
growth, and thus, these results should be interpreted with high 
caution.
    For example, an analysis of voucher studies completed prior 
to 2009 by C.E. Rouse, professor at Princeton, concluded that 
research on vouchers finds relatively small achievement gains 
for voucher students, most of which are not statistically 
different than zero, and secondary effects on remaining public 
schools, such as competition, are not positive.
    Voucher advocates continue to cite the so-called ``gold 
standard studies'' promoted by the Friedman Foundation. 
Remember, the Friedman Foundation is a voucher advocacy group, 
irresponsibly failing to acknowledge that many limitations that 
the very authors of these studies warn against in their 
research have not been posted on their Web site.
    Specifically, the studies promoted by the Friedman 
Foundation failed to report inconsistent findings across these 
so-called gold standard studies. For example, some of the 
studies reflect positive gains for some students but not across 
all grade levels that received the voucher treatment. Some 
studies that reflect positive impacts do not include all 
voucher students, leaving out a significant portion of the 
sample. Also, most positive effects are isolated to a specific 
grade level and to a specific student characteristic, and 
seldom in both reading and math, and across all grade levels.
    In other words, results are haphazard, inconsistent, and 
some of the very authors that are cited in these so-called gold 
standard studies actually worry about these inconsistent 
results that should not be used to inform policy decisions.
    We already heard the most recent findings from the D.C. 
Opportunity Scholarship Program where there was no conclusive 
evidence of the students that participated after 5 years, and 
we have also heard about the Louisiana study that recently came 
out, where we actually see some negative effects on students 
that actually took on vouchers.
    Lastly, Lubienski & Lubienski, and Chris Lubienski has 
testified before this committee, looked at a study that has 
looked at public versus traditional school achievement, has 
indicated that when we control for specific characteristics, 
that public schools in general outperform kids that are in 
private schools.
    I will provide more recommendations in the question and 
answer session. Thank you for your time.
    [The statement of Mr. Huerta follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
  
    
    Chairman Kline. Thank you. Ms. Merriweather, you are 
recognized.

TESTIMONY OF DENISHA MERRIWEATHER, STUDENT, UNIVERSITY OF SOUTH 
                            FLORIDA

    Ms. Merriweather. Good morning. Thank you so much for 
having me today. It is an esteemed honor to share my story with 
everyone.
    When I was growing up, college was a dream that I did not 
even know I had, and if it was not for the educational option 
Florida gave me 12 years ago, I would not be sitting here 
today.
    If you were to rewind my life back when I was in elementary 
school, you would see someone totally different, someone who 
was disruptive, the teachers dreaded having come through the 
door, someone who got into physical fights with her classmates, 
someone who was destined to drop out before she made it to high 
school, but thankfully, I did not become a statistic.
    Growing up, I was a student who did not pick up concepts 
and ideas very quickly, and I struggled to keep up with my 
classmates. I moved around town constantly when I lived with my 
biological mother, and consequently, that meant I missed a lot 
of days of school, my grades were terrible, and everything 
seemed to go down hill.
    Each time I moved, it was very hard for me to adjust to my 
different school, the different teachers, different classmates. 
I got picked on by students because I was doing so poorly in 
school. I was often bullied. I kept getting into fights, and to 
make matters worse, I ended up failing the third grade not once 
but twice.
    All too well, it seemed my future was mapped out for me. I 
would follow in the footsteps of my mother, my brother, and my 
uncle, who all dropped out of school.
    I hated going to school, and it was a nightmare. I thought 
school was a punishment for being the kid. One of the first 
things my godmother wanted to do when I began to live with her 
permanently the summer before my 6th grade year, was to find a 
better school environment for me, and that is when she heard 
about Esprit de Corps Center for Learning, a small private 
school in Jacksonville, Florida, but she could not afford the 
tuition.
    A friend of hers told her about the tax credit scholarship 
program, Step Up for Students. Although she had to pay a little 
bit more to go along with the scholarship, she was willing to 
sacrifice for my education. And to be honest, Esprit de Corps 
was just the change I needed.
    Before I even stepped foot on my new school's campus, I met 
with one of the teachers there, and she helped me to learn my 
times tables with my reading because it was so low, and some 
other concepts that I could not grasp. When I started at Esprit 
de Corps in the 6th grade, the adjustment was fairly smooth 
because of the extra attention that I received.
    This class size was so small, I only had eight students in 
my class, and it was awesome because the teachers could walk 
around and ask us questions about things that we had questions 
on and things we did not know we had questions on.
    As the time at Esprit de Corps passed, by the first 
semester, my grades went from Ds and Fs to As and Bs, and I 
continued to make the Honor Roll constantly.
    I say here to you guys today that Esprit de Corps really 
changed my life. It gave me a new perspective on education, and 
it gave me a passion to want to learn. They even helped me to 
fund my ACT, SAT, and college application fees.
    The motto at Esprit de Corps is a school where learning is 
a joy, excellence is the norm, and superiority is our goal, and 
that was insistently graved into me. Although when I first 
started at Esprit de Corps, I was behind, it became a 
competition, and I wanted to meet their expectations.
    In 2010, I became the first in my family to graduate from 
high school, and in 2014, I became the first in my family to 
earn my Bachelor's degree, and in 2017, I will be the first to 
earn my graduate degree.
    The cycle of poverty is ending in my family because of the 
Florida tax credit scholarship. I received a quality education 
and because of my example, my siblings are now seeing how to 
take advantage of educational opportunities that come their 
way.
    I am committed to advocating for educational options 
because so many doors have been opened for me, and I want to 
create those same open doors for other students. I have seen 
the power of tailored education demonstrated in my own life, 
and I would like to see it expanded in future generations and 
in this one.
    It has proven to be effective in my life, school choice, 
and I am so thankful to share my story with you guys today. 
Thank you so much.
    [The statement of Ms. Merriweather follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairman Kline. Thank you. A fantastic story, thank you 
very much for sharing that. We are going to start questioning. 
I am going to yield my time to someone who has been working on 
school choice for apparently two or three lifetimes, Mr. 
Messer. I yield my time to you.
    Mr. Messer. Thank you, Mr. Chairman. You are a man of your 
word. Thank you for holding this hearing. You are a great 
advocate for kids and have spent a career as an advocate for 
educational choice opportunities.
    Ms. Merriweather, I am moved by your story. As somebody who 
has worked very hard on these issues in Indiana before my time 
in Congress, I have talked to hundreds of people who have a 
story just like yours. It is part of why I have so much passion 
for this issue.
    You know, there are several reasons that I am so passionate 
about school choice. Part of it is I believe it is the civil 
rights issue of our time. It gets to the essence of the 
American idea, this idea in the second paragraph of the 
Declaration of Independence, that we all are endowed by our 
creator with the right to pursue happiness. In modern life, we 
take that as your opportunity to live the American dream. To 
have that dream a reality in modern America, it all starts with 
an education.
    Secondly, I am passionate about this because, you know, 
there is a lot in this debate that is complicated, but there 
are some things that are not very complicated. To me, what is 
not very complicated is this: if we want to determine what the 
best option is for a child, we ought to ask their parents. The 
best way to determine what is the best path for a child's 
future is to let that parent decide what is the best option for 
them.
    I have seen in Indiana what happens when those options open 
up. In Indiana, we now have 200,000 families, 200,000 kids, who 
are taking advantage of educational opportunities through 
vouchers, through charters, through public school choice 
opportunities, virtual school, and the like.
    It is amazing, as Mr. Bryan talked about, as he has seen in 
North Carolina. When the families come--each year, we have a 
rally at our state house where thousands of families show up. 
They are part of this program and advocating for it to continue 
in the future. Those families are a mosaic of our state. Every 
race, color, and creed, religion, economic background, all just 
looking for an opportunity to have their shot at the American 
dream.
    You know, today's conversation will no doubt talk about a 
lot of the complexities that come with providing educational 
opportunities for kids in America, what is the appropriate role 
of the Federal Government, what's the pitfalls, philosophical 
concerns.
    All that debate is legitimate; right? We all need to 
remember as we work through that debate that as we wait, as we 
frankly dither, millions of kids in this country are going to 
go to a school today where they do not really have a chance to 
succeed, and we can do better. We can make sure that every kid 
in America has a chance.
    So now, with that, and again I appreciate the chairman 
giving me the opportunity to start here, you know, it is 
interesting as we talk about statistics, one of the things that 
has changed as this movement, as Mr. Robinson talked about, has 
evolved, is the popularity of these programs.
    A recent poll came out, released just a few days ago, by 
the Beck Research and the American Federation for Children, and 
it says choice programs, educational choice are favored, 74 
percent of parents favor these options, 23 percent oppose. 
Seventy-six percent of African Americans favor, 20 oppose. 
Seventy-six percent of Latino's favor, 21 oppose. Millennials 
now, 75 percent favor.
    Mr. Robinson, could you talk a little, why do you think 
these programs--why do you think parents support school choice?
    Mr. Robinson. Parents support school choice because they 
simply want what is best for their own children. You know, it 
is interesting that education may be one of the few human 
endeavors where the customers' voice at times seems not to 
matter. In other places, if customers say I do not want to buy 
your product, guess what, in some places, your business is 
going to actually cease to exist.
    When we ask parents what kind of school do you want, they 
want a school that has strong academics, a school that is safe, 
so what parents have done simply is to say we would like to 
have access to the tax dollars we invest in our system. 
Remember, it is the taxpayers' money, and they see that it is 
important.
    I had a chance, in fact, I moved to Milwaukee for two years 
to study where at that time had the most robust three sector 
initiatives in the nation, one-third of its school age 
population decided not to enroll themselves in the traditional 
public school system.
    It was not because they did not like public schools. It was 
because they liked parental options. I think often we overuse 
the conjunction ``or,'' it is either ``private school or public 
school,'' when really it is an ``and'' aspect. They like it 
because it is making a great difference.
    When you look today and realize there is over 27,000 
students enrolled in Milwaukee where in 1990 there were a few 
hundred students at several schools, that is not by accident.
    It was mentioned earlier about supply side. Be very clear. 
If there is a demand, there will be a supply. There has been a 
growth in the private schools that have grown in Milwaukee and 
other cities that have taken place, even Washington, D.C. where 
you have a healthy market, we have seen changes.
    Mr. Messer. Thank you, Mr. Chairman. I look forward to 
today's debate.
    Chairman Kline. I thank the gentleman. I thought I was 
going to have to gavel down my own time there for just a 
minute. Mr. Scott, you are recognized.
    Mr. Scott. Thank you, Mr. Chairman. Before I begin 
questioning, I would like to submit three letters for the 
record by national groups in opposition to using public funds 
for private schools. One from the National School Boards 
Association, one from Americans United for Separation of Church 
and State, and a final one from the National Coalition for 
Public Education.
    Chairman Kline. Without objection.
    [The information follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
 
    
    Mr. Scott. Thank you, Mr. Chairman. I would also like to 
make a comment about portability because that has been, I 
think, misunderstood. This committee already rejected the idea 
of using Title I funds in private schools, and we also ended up 
rejecting the idea that the money ``followed the child.'' Well, 
the money already follows the child. The formula is based on 
the number of children you have in a particular school.
    When you have a straight per capita calculation, you lose 
the plus up that is in Title I for concentrations of poverty. 
If you have 15 percent poverty, you get a little more. If you 
have 30 percent poverty, you get a little more. When you go to 
a straight per capita allocation, you lose that plus up for 
poverty, which has the effect of moving money from very low 
income areas to very high income areas.
    We want to make sure that people understand what 
``portability'' meant, and we ended up keeping the formula 
where it is so that those high concentrations of poverty get 
more money, and that is the original intent of the Elementary 
and Secondary Education Act.
    Mr. Huerta, we have had studies that show that basically 
public school choice on average is average. Can you make a 
comment on that, some are better, some are worse, and on 
average, they are average?
    Mr. Huerta. First, let me talk about the general numbers we 
know about, looking at public school student performance versus 
private school student performance.
    The study by Lubienski that I cited using 2003 NAEP, 
National Assessment of Educational Progress Scores, which 
public and private school students are assessed on this, 
clearly indicated--this is only looking at 4th grade students--
that students in public schools once controlled for specific 
characteristics, and this study used individual characteristics 
such as whether families were reading to their kids at night, 
and these are characteristics that were not used in previous 
studies, but the evidence clearly showed that kids in public 
schools outscored kids that were in private schools.
    Now, it is also important to note that public schools are 
not failing at large. Certainly, there is a crisis in some of 
our urban areas where we have some failing schools, but I think 
it is very important to just remind ourselves that public 
schools are not failing, which is where the majority of our 
students are in the United States.
    With regards to the evidence, just building a little bit 
more on what I talked about in my testimony, that when it comes 
to vouchers specifically, we continue to hear advocates talk 
about these so-called ``gold standard studies.''
    A new study that is just coming out from Lubienski, who I 
have mentioned already, will be looking point by point to all 
the 12 or 13 so-called ``gold standard studies.'' I already 
made some of the points earlier with regard to the uneven 
impact that we have seen that has been claimed as positive 
impact by many voucher advocates in a lot of these studies.
    The interesting part about these so-called ``13 studies'' 
is the very authors of these studies, the majority of them, 
actually explicitly warn policy makers in using this data to 
extrapolate and to make any sort of policy decisions because of 
the unevenness, yet the Friedman Foundation has taken the 
liberty to use some of this evidence without acknowledging 
these very important caveats and warnings that these very 
authors have actually talked about.
    Mr. Scott. Thank you. I have several other questions I want 
to get in before my time has expired. Do you have evidence to 
show what portion--you talk about an opportunity, what portion 
of the students getting vouchers today would already be in 
private school?
    Mr. Huerta. I am sorry, Mr. Scott.
    Mr. Scott. How many people that get vouchers today would 
already have been in private school even without the voucher.
    Mr. Huerta. I do not have the exact numbers. It varies by 
state. There are some states that actually require that kids 
have actually been enrolled in public schools prior. There are 
some states that actually allow students to take a voucher even 
though they have not been previously in private schools. I am 
sorry, I do not have the exact numbers.
    Mr. Scott. Is it a school's choice or a student's choice? 
Do many schools have the opportunity to accept who they want?
    Mr. Huerta. Private schools have the opportunity to accept 
whomever they want. I think that is very important when I talk 
about the supply side, this is something that is seldom talked 
about. Certainly, parents are provided a choice when we expand 
school choice policies, but we have to acknowledge and remember 
that states do not have the ability to compel private schools 
to accept all students.
    So, sometimes simply providing students or families a 
choice, it could be a false choice if there are not any choices 
available to them.
    Chairman Kline. I am sorry, the gentleman's time has 
expired. Dr. Foxx?
    Ms. Foxx. Thank you, Mr. Chairman. Representative Bryan, if 
you were advising other state leaders seeking to enact and 
implement choice policies, how would you recommend they 
proceed, what obstacles can they anticipate, and would you 
speak to the excellent bipartisan support that you have had in 
North Carolina, if you would, in your response?
    Mr. Bryan. Thank you, Dr. Foxx. I think the first thing 
when I was working on a school choice bill was actually seeking 
out other legislators on the other side of the aisle who I 
thought might be supportive, and having conversations with 
them, trying to have conversations with folks across the 
spectrum, trying to make the issue of school choice less 
combative and more discussion about how we can create great 
outcomes for all of our kids.
    Even public school advocates who really want every money, 
every sort of public dollar going to traditional public school 
acknowledged that we were failing a lot of our kids right now, 
and they need immediate access to other choices.
    I think talking about it in that way is important. I think 
making sure that you talk to parents and other organizations 
that care about this issue and making sure they are getting the 
information they need to make good decisions. I think the 
primary thing I would say is try to work on it in as bipartisan 
a manner as possible to create a good outcome for kids.
    Ms. Foxx. Thank you. You also said in your testimony that 
the opportunity scholarships improved public schools and 
improved student outcomes. Dr. Huerta's testimony questioned 
those arguments. Could you give us a little bit more 
information about what the experience has been in North 
Carolina?
    Mr. Bryan. Sure. I will say as North Carolina's program was 
challenged, we were just starting, and I think as anyone would 
acknowledge, when you start a program, you are mostly dealing 
with anecdotes on the front end not actual data.
    I think it is fairly common sense. I talked to our State 
Board of Education chair recently, and he made a comment that 
the principal of a traditional school--they had opened a 
charter in that district, and the principal of the traditional 
school had gone to talk to all 38 parents who were going to 
that charter. He said you know, that is exactly what happens 
when there is another choice for parents, is it makes sure that 
the people at the traditional school are serving their families 
well. That is what you want to have happening.
    I think when parents have options, it creates the kind of 
environment where we know that we are serving our students 
well.
    Ms. Foxx. Thank you very much. Mr. Robinson, perhaps you 
could add a little bit to what Representative Bryan was saying 
since North Carolina's experience is fairly new. Would you talk 
a little bit about the one or two elements, key elements, of 
school choice policies that strongly influence student 
outcomes, and you do not have to go into great detail, but if 
you would point us to some studies or to some results that we 
could then look at and make a part of the record, that would be 
helpful to us.
    Mr. Robinson. Dr. Patrick Wolf at the University of 
Arkansas has been the principal investigator, one of many, but 
the lead for the program in Milwaukee and for the opportunity 
scholarship program here in Washington, D.C. I would take a 
look at his studies.
    Secondly, it would be worth mentioning that the Friedman 
Foundation did not create the concept of a gold standard. 
Really, when you are talking about methodological standards, 
you are looking at control groups and treatment groups. To make 
sure that there are good points there, I just wanted to mention 
that.
    Having a strong teacher qualified to teach in a school has 
been one way that we have seen a difference. Secondly, inviting 
parents and the community to be involved in the process. We 
have to remember that we cannot expect nor should we expect 
public schools to do all the work by itself. It takes what I 
call a civil society approach where there are families, faith 
based communities, corporations, and others who need to be 
involved.
    There are public schools who are doing this well. We can 
learn from them in the private sector, and the private sector 
programs are doing equally as well.
    I would also like to add Betts and Tang. They had a 2014 
study where they looked at 90--52 value added papers on charter 
schools, and they actually found in fact there was some 
improvements as relates to math and reading, particularly over 
time.
    Ms. Foxx. Thank you very much, Mr. Chairman.
    Chairman Kline. I thank the gentlelady. Ms. Fudge, you are 
recognized.
    Ms. Fudge. Thank you so much, Mr. Chairman. Thank you all 
for being here today. Ms. Merriweather, my sincere 
congratulations to you for the work you have done. I represent 
tens of thousands of children just like you, and certainly hope 
they have the same opportunity that you had. Congratulations to 
you.
    I am an advocate, as many of you are, for the proposition 
that all children have access to a quality education. I just 
wish that my colleagues would fight as much for those with no 
choice as they do for those who have a choice.
    Mr. Bryan, you indicate that the opportunity scholarships 
improve student outcomes. If this is the case, please explain 
to me why there is such resistance from private schools to 
report out data on yearly student performance and on their 
school and class demographics, just as public schools must.
    Mr. Bryan. Thanks for the question. I think it is 
fundamentally one of freedom. I think those schools are worried 
about government sort of being involved. They are all 
preexisting. One of the things we know about them is that they 
were existing without the government, and they have other 
parents there, and they may not want to release data 
surrounding other students.
    Ms. Fudge. Thank you so much. That is a real shock. They 
want public money but they want freedom. Is that what you said? 
They should not report on tax dollars?
    Mr. Bryan. You can have reports on tax dollars, and I think 
we do, actually, you have to have a certain number of students 
so that the student data is not made available. There certainly 
are reports that have to be given on the data of how students 
are performing.
    Ms. Fudge. Thank you very much. You gave me the perfect 
answer, freedom. Mr. Robinson, in your testimony, you cite a 
report by the Friedman Foundation that states the top reasons 
parents choose a private school for their children were school 
environment, smaller class sizes, and more individualized 
attention for students.
    Is it safe to say that if public schools had adequate 
funding to provide more teachers, which would lower class 
sizes, and more school counselors, classroom aides, and 
behavior interventions, which we know help, would parents be 
less inclined to seek out private options?
    Mr. Robinson. Well, parents seek out private options for 
reasons other than the ones you mentioned, so--
    Ms. Fudge. Did you not say that?
    Mr. Robinson. What I said was in Georgia, you had Dr. Ben 
Scafidi--
    Ms. Fudge. Did you say what I just read? Did I misquote 
you?
    Mr. Robinson. Yes--no. I said that parents choose it for 
smaller classroom, intervention, and other factors. The point 
you had mentioned, if public schools had A, B, or C, would 
parents leave. That part, I do not know. There are a lot of 
reasons parents leave. Some of the reasons they left were the 
ones I cited.
    Ms. Fudge. Thank you. Dr. Huerta, we know that programs 
provide vouchers to students enrolled in K-12 with a maximum 
voucher amount, at least in Ohio, of $4,250. Most private 
schools are significantly higher than that. Really, is there in 
fact a choice for a parent, even if they receive a voucher, if 
they do not have the resources to make up the difference? Do 
they really have a choice?
    Mr. Huerta. I think the choice is limited, and I think one 
of the things we have seen in places like Milwaukee and 
especially we are seeing this in Louisiana, one of the newest 
voucher programs, is that the majority of voucher schools that 
choose to accept students are the lower quality and not the 
long-standing private schools.
    Certainly, we have a lot of parochial schools which have 
lower tuitions that are taking on some of these students, but 
these are the very schools that themselves are now being 
challenged as the demand has increased on whether the actual 
voucher amount is sufficient to continue to actually provide 
services for a more diverse group of students.
    In Milwaukee where we see a voucher amount, I think, in the 
amount of $8,500, and as I mentioned, in Minnesota, the amount 
needed to actually increase capital facilities in these places 
is much higher. We are talking in the range of $14,000 to 
$15,000 in quality private schools.
    Ms. Fudge. Thank you. I am going to close just by saying 
this, I know that all of my colleagues on both side of the 
aisle believe in accountability. We hear it every day, whether 
it be about the budget or some other thing.
    I am certainly hopeful they will be on my side as it 
relates to making sure that we are accountable for the dollars 
that we take from taxpayers, whether they are in a private 
school, whether they are in a parochial school. We are 
responsible to the people of the United States for their 
resources.
    I would certainly hope that we all would be on the same 
page with that. Secondly, let me just say that I am not really 
an opponent of charter schools. What I am is a proponent of all 
schools. I wish we would spend as much time on the schools that 
educate 95 percent of all our children than the schools that 
represent 5 percent.
    I yield back, Mr. Chairman.
    Chairman Kline. The gentlelady yields back. Dr. Roe?
    Mr. Roe. Thank you, Chairman. Full disclosure, there are no 
charter schools in my district. Mr. Robinson, you started out 
by saying that families make a choice when they move, and you 
are absolutely right. I remember when I moved my family to 
Johnson City, Tennessee. I looked for the best public school 
there was because I had gone to public schools my entire life. 
I wanted my children to go to good public schools, but I could 
that because I had the resources to buy a house in that 
neighborhood.
    Ms. Merriweather, whose story was unbelievable and an 
incredible story, did not have that choice. Fortunately, 
because someone took an interest and saw real talent in that 
young woman and invested time in her, she is going to be an 
advocate for other people. That is one of the most compelling 
stories I have heard, and a big shout out to you for that.
    I do have full disclosure. I do have one son, and all my 
children went to public schools, but I have one son, with a 
heavy heart, I have to tell you, has a graduate degree from 
Vanderbilt. I am very sad about that being a UT graduate.
    The point is an education is your ticket out. It is the 
only chance you have. What I cannot understand, if you are 
going to a failing school, why anybody would want to keep a 
child in that school. Why would you let them try if you are 
failing, why would you not let that child, whatever you have to 
do, because they only have one chance, and I can tell you, a 
parent does not give a hoot about meta-analysis or anything 
else, what they care about is they want their child safe and 
they want their child learning, and parents know that. They 
know when they go to a school--a school has a reputation just 
like a doctor or lawyer or anything else, and we know where 
kids go and learn.
    Look, I do not know the answer to all this, but I do know 
the answer is not keeping a kid in a school that is not working 
for them.
    I would like to ask any of you to answer this. What is the 
role or does the Federal Government have any role in this part 
of public education, a voucher system? Mr. Robinson, I will 
start with you. What role do you see for the government? Expand 
it, shrink it, what is it?
    Mr. Robinson. It can serve as an encourager. What you 
decide to do with the ESSA law, letting states have the 
opportunity to experiment, that is a role. I go back to early 
in our history where we looked at knowledge, religion, and 
morality being necessary for good government and the happiness 
of mankind, schools and the means of education shall forever be 
encouraged.
    I see the federal role as an encouraging role, one that 
allows states to do what it can, support where it can, and lead 
from behind.
    Mr. Roe. In our State of Tennessee, we have had the largest 
gains of any state in the Union. We have moved from the high 
40s to 25th now in the country, and that is not high enough. We 
would like to be number one.
    We have made community college free in the state, technical 
college, free in the state. We have opened those opportunities 
up for students so that there are no economic barriers now.
    I think with Ms. Merriweather's story, her education, her 
story did not just change her life, and she mentioned it, it 
changed many other lives and the success she is going to have 
with her and her family, if she has a family going forward, it 
will change their lives. Education does not just change one 
person's life.
    The other thing I want to ask is why would a teacher--Dr. 
Huerta mentioned this--why would a teacher work in a private 
school for significantly less money? Why would a good teacher 
do that?
    Mr. Huerta. Would you like me to respond?
    Mr. Roe. Yes, sir.
    Mr. Huerta. I think it is for obvious reasons that I sort 
of stated earlier, and that is we know that private schools are 
often not educating the diverse groups of students that public 
schools are responsible for serving. That could make a real 
difference in the classroom environment, and a variety of other 
factors within schools.
    Can I actually reply to your earlier question?
    Mr. Roe. Let me ask this question. My two grandchildren go 
to a private school, and they do for several reasons, but the 
tuition at this school is less than what we pay to educate the 
public. They had a senior class last year whose average ACT 
score, the class average, was 29. In our area, that works 
pretty well. The public school system works very well.
    I can certainly understand my friends who are public school 
teachers and administrators why they do not want the dollars 
that are already thin moved somewhere else. Also, there has to 
be accountability and success. Where we are, there are no 
charter schools, so obviously our public schools are working.
    Right here in Washington, D.C., I live across the street 
from a public school, they are not working. There are kids that 
are failing and they are spending an enormous amount of money 
on it, not a little bit of money, an enormous amount for 
failure.
    I yield back.
    Chairman Kline. The gentleman yields back. Mr. Pocan?
    Mr. Pocan. Thank you, Mr. Chairman. I also want to thank 
you for holding this hearing. Let me just add to the echo, Ms. 
Merriweather, congratulations and thank you for sharing your 
story. I think your story is what makes a teacher proud they 
chose the profession they chose, and it is a testament to what 
good teachers and small class sizes can do, so thank you for 
sharing that.
    However, unlike Mr. Messer, I think I have a little 
different experience when it comes to taxpayer funded voucher 
programs. I spent 14 years in the Wisconsin legislature. I was 
not around for the creation of the program, but I was around 
for 14 years of the growth of the program.
    Let me just kind of share my perspective of how things 
worked in Wisconsin. When we first started the program, we had 
money going to schools where the person who ran the school said 
he could put his hand on a book and read it. We had money going 
to schools where they bought Cadillacs with the money for 
administrators for the program.
    From there, some accountability standards came in, but as 
Ms. Fudge brought out, there is still a problem with 
accountability and records.
    I went to South Division High School in Milwaukee, a public 
school, with a low graduation rate of about 50 percent, but 
when a student came from one of these taxpayer funded voucher 
schools, there there was absolutely no records that came with 
them, so you were starting with a blank slate, so while there 
may be freedom for that school, there is no accountability or 
anything for the student who is trying to go to that high 
school and how to place that person. That is part of the 
records that we had.
    When I look at the Wisconsin experience, those schools can 
select their students. We had a real controversy especially 
with students with disabilities. The American Legislative 
Exchange Council, which is a corporate bill mill that puts out 
all these different bills, had a special needs scholarship 
bill--- sounds just like what North Carolina passed - every 
disability group in the state opposed it because they know what 
is going to happen: more dollars will leave the public school 
system and go to private schools, and only a few children will 
benefit from that, but in general, the public schools are going 
to be left with some of the tougher kids, which costs more for 
the system, and ultimately that hurts public education even 
more.
    They lacked the accountability that I mentioned. We had 
schools shut down. In Wisconsin alone, we had schools shut down 
literally overnight that took taxpayer money, and that cost to 
the taxpayers was about $176 million in the State of Wisconsin. 
That is the experience that we had.
    Ultimately, it diverted resources from our public school 
system, and it is the government's responsibility to make sure 
children have access to that opportunity of education.
    That was our experience. And then, I remember when Governor 
Pence came before this committee and I asked him about the 
rollout in Indiana. I think he said somewhere between 40 and 50 
percent of the kids who came into the program already attended 
a private school.
    In Wisconsin, the last expansion we had, 79 percent of the 
people already attended a private school who went into that 
program.
    That is not so much about education policy, that is really 
kind of like a tax policy. I guess my question to Dr. Huerta 
especially, my experience that I am offering from my state, how 
different, are we the anomaly compared to these other states' 
experiences, and can you just tell me how that helps public 
education?
    Mr. Huerta. Mr. Pocan, I do not think Wisconsin is an 
anomaly. Wisconsin is the longest--Milwaukee is the longest 
standing voucher program that we have, and it is one of the 
larger programs.
    The issues that you described in detail are being reported 
in many of the other voucher programs that we have in places 
like Cleveland and already in Louisiana we are already seeing 
some of these issues coming forth.
    I think you are certainly not an anomaly. If I can actually 
answer your question with sort of a broader statement that was 
brought up in the earlier exchange with regard to what the 
Federal Government can do to begin to address some of these 
issues, and I think the government needs to ask themselves 
whether placing the responsibility of educating students is 
wise, and placing that responsibility on private schools, and 
we have to remember that equity is not a market value. Private 
schools are market entities. Equity is not a market value of 
private schools.
    When we talk about issues around accountability and so 
forth, voucher and tuition tax credit programs threaten public 
authority and the ability of states to actually ensure that a 
uniform ed system actually advances equity and social cohesion, 
and the Democratic citizenship of all students.
    When the state does not have the ability to hold private 
schools to account, we are not able to guarantee that those 
values are actually engrained in our students.
    Mr. Pocan. Thank you. I only have 12 seconds. Mr. Robinson, 
if you get a chance, because you have had the experience in 
Wisconsin, give some of those issues that are brought up, 
really the lack of accountability, the problem when they 
transfer to a public school, the problem with the children 
being cherry picked. I would just love to hear you address some 
of those because I do think those are real valid concerns that 
I experienced in my home state.
    Chairman Kline. I am sorry, the gentleman's time has 
expired. Mr. Guthrie?
    Mr. Guthrie. Thank you, Mr. Chairman. Thank you, Ms. 
Merriweather. Again, I will echo. I think you said you were a 
South Florida student. Western Kentucky University is in my 
district or my home town. We got to play in a bowl game. I say 
that because you hired our coach away from us, beloved Willie 
Taggart. I hope you have a chance to meet him or his wife 
because they are fantastic people and class act, and wish him 
the best, and thanks for coming here today.
    You said this opportunity kept you from being a statistic, 
and it seems as we are listening to this now, you are a 
statistic because we are talking about 79 percent this, 81 
percent that. What we are seeing is lives that change.
    I think there was one study, I think, that was quoted that 
said did not show gains but the worse other than that was on 
average there are no gains. It gave you an opportunity to find 
the school that fit for you. I think those are things we have 
to recognize.
    You said also that the voucher or the tax credit did not 
completely cover your tuition, but it made it affordable for 
your godmother to be able to make that choice for you. I think 
a lot of things that we are hearing negative towards choice and 
use of public funds for giving people other educational 
opportunities, you seem to be debunking because it seems to fit 
your life and you are in a graduate program, so we really 
appreciate you being here and sharing your story because it is 
important for us to hear.
    I worked in the state legislature as well, Mr. Bryan. 
Thanks for your work. The education area is where I worked. My 
kids went to public schools. I have one that is a senior in 
high school, had fantastic opportunities. I think somebody said 
95 percent of schools are successful. I do not know what the 
number is, but a vast number of Kentucky schools are extremely 
successful.
    I will tell you there are some schools that I got to visit 
that weren't, and I really tried to do a recovery program for 
schools in distress. We could not do charters or vouchers. That 
just was not going to happen politically in Kentucky at the 
time. I think the time is coming.
    We were able to do substantial things through bipartisan, 
and one of my biggest partners in trying to get it through the 
House was the different Majority than mine, the Urban League. 
The leader of the Urban League in Lexington saw the schools 
that typically were inner-city schools, although we have rural 
schools that have issues and failure.
    Now, I think maybe the time has come in Kentucky. We have a 
new Governor, closely aligned legislature that might move 
forward on charter schools.
    The question--I think there are fair points that were 
brought up, how do you ensure that private schools do not 
cherry pick students, how do you ensure that--I agree with Ms. 
Fudge, we want to make sure that every tax dollar is 
accountable.
    Mr. Robinson, I guess I am just asking you, Kentucky is 
looking at our charter schools, and when we talk to Governor 
Bevin or his new Secretary Heiner, what states prevent some of 
the problems you are talking about and what states do it right, 
and what should we look at moving forward? We are talking about 
charter schools and vouchers as we speak.
    Mr. Robinson. So the issue of cherry picking has been a 
problem for some places and not others. In most states, they 
have a lottery. If there are 100 seats and they have 200 
applicants, you have a lottery. I have attended lotteries. I 
have had a chance to pick the balls out or the name. The 
students who were picked actually enroll. There may be 
attritions and students may leave, but we are not cherry 
picking every single kid. With 2.9 million kids, a lottery is 
one way to take care of that.
    Number two, some students choose to leave a charter school 
either because (a) it is just not a good fit, same reason they 
left a traditional school. Some choose to leave because they 
want to go to another school that has a program that is better 
aligned.
    I will not get into which state is better or not. That will 
probably get me in some trouble.
    Mr. Guthrie. Just some model states. I do not want to say 
what is better.
    Mr. Robinson. The National Alliance for Public Charter 
Schools, they have a report where they have ranked all of the 
states, and you've got Minnesota, you have other states. I 
would say take a look at their ranking. They rank on several 
criteria. Some states are doing really well.
    If you want to be a strong charter school state, make sure 
you have a lottery in place, make sure we fully fund charter 
schools. It is a myth that charter schools are receiving all 
the funding that traditional schools are sending, and before we 
have conversations about fully funding public education, let's 
truly fund all public schools including charter schools.
    Mr. Guthrie. I am about out of time. Ms. Merriweather, 
again, I had a lady that worked in a factory, was managing a 
factory, and a lady who dropped out of high school, talked her 
into going back. She said the biggest effect on her going back 
to school was her daughter. You say your siblings are moving 
forward.
    My question is you are in your graduate program, what is 
next for you?
    Ms. Merriweather. Thank you so much.
    Mr. Guthrie. Looking for a job?
    Ms. Merriweather. Yes, I am actually getting my Master's in 
social work. Every time I tell someone it is befitting because 
of my family dynamics and me wanting to make a change in my 
family, and yes, my siblings are now seeing my example, and 
even other members in my family, my biological mother, she 
often tells me, you know, thank you so much, you really inspire 
me and I am so happy that I actually gave you basically to my 
godmother in order for her to impart into me.
    It was really amazing that I could get the tax credit 
scholarship and my younger siblings are now receiving it as 
well, and they are taking advantage of the same education.
    Mr. Guthrie. Thank you. I yield back.
    Chairman Kline. I thank the gentleman. Mr. Jeffries, you 
are recognized.
    Mr. Jeffries. Thank you, Mr. Chair. I thank the witnesses 
for their presence here today.
    Dr. Huerta, how does the percentage of private school 
students who are English language learners compare to the 
percentage of public school students?
    Mr. Huerta. This is a number that varies again state by 
state, but we know that private schools accept substantially 
fewer students with English language needs, as well as students 
with special education needs. On the latter, private schools 
are not required to provide special education to their 
students. That is very important to consider.
    Even though there are some special ed vouchers that exist 
in several states, voucher schools that accept these students 
are not in any way compelled or held accountable to actually 
provide the same special ed quality services that would have 
otherwise been provided in a public school.
    Mr. Jeffries. Thank you. On that point, Representative 
Bryan, private schools participating in North Carolina's school 
voucher/school choice program under law are able to exclude 
students with disabilities and special needs; correct?
    Mr. Bryan. That is correct.
    Mr. Jeffries. Under North Carolina law, private schools 
that are receiving taxpayer dollars are able to exclude 
students with limited English proficiency; is that correct?
    Mr. Bryan. Yes.
    Mr. Jeffries. Under North Carolina law, private schools 
that are receiving taxpayer dollars are able to exclude 
students with certain religious backgrounds; is that correct?
    Mr. Bryan. There is no--yes, they have their own standard 
requirements. Of course, they do not get money for any of those 
things either.
    Mr. Jeffries. But they are able to exclude, even if they 
are receiving taxpayer dollars related to other students 
participating in the voucher program, they can make the 
exclusionary decisions based on religion; correct?
    Mr. Bryan. Yes. They are an existing private school, so 
they have their own admission standards.
    Mr. Jeffries. I am not even quite sure that is 
constitutional, but that is a question for another day. Public 
schools are required to educate all students, correct, 
regardless of religious background, regardless of special 
needs, regardless of their English language learner status; 
correct?
    Mr. Bryan. Yes, and they get a lot of extra money to do so.
    Mr. Jeffries. Can you explain to me why it is fair for the 
taxpayers of North Carolina to essentially fund private school 
vouchers for schools that can engage in these discriminatory 
practices that you just acknowledged exist under law?
    Mr. Bryan. Well, fundamentally, it is the parents 
exercising the right, which we have been doing since we have 
been America. We give out college grants to folks, they can 
exercise those at private religious universities, you can go to 
a Jewish college, a Christian college, whatever kind of college 
you want to go to and get public dollars for that. It is a 
parent or in that case a student making a choice.
    Mr. Jeffries. You do not have a problem with taxpayer 
dollars being used in this fashion where private schools are 
able to essentially say ``no, you are an English language 
learner, we are not going to accept you, even if you received a 
voucher. No, you are a special needs student with disabilities, 
we are not going to accept you''. You do not have an issue with 
that?
    Mr. Bryan. Again, they do not get money for those things. 
We give extra money for most of those things, and the standard 
traditional school gets that money. In these cases, they do 
not. There are schools that do take special need kids. That is 
the marketplace of the private schools.
    Mr. Jeffries. Given the exclusionary nature, as you have 
acknowledged, under North Carolina law, some of these students 
who are ELL individuals or special needs students actually do 
not have choice; correct?
    Mr. Bryan. Well, it depends. I think there are schools that 
do provide that. I would love for more kids to have choices.
    Mr. Jeffries. Right. Mr. Robinson, is the objective of many 
of these programs that you have supported to provide low income 
students with the broadest range of options? Is that right?
    Mr. Robinson. Correct.
    Mr. Jeffries. Okay. Now, the majority of programs 
throughout the country that participate in private school sort 
of voucher initiatives, the majority of states, I should say, 
they do not cover the full cost of tuition; correct?
    Mr. Robinson. Milwaukee does not cover full cost of 
tuition. It is a social justice model where the school accepts 
$7,200, and it varies a little more for high school. When they 
accept the money, they cannot charge tuition beyond that. If 
they attend a school that is $20,000, they accept the $7,200, 
the rest is gone. Social justice--
    Mr. Jeffries. That is in Milwaukee. The majority of private 
school voucher programs throughout the country do not cover the 
full cost of tuition; correct?
    Mr. Robinson. No, and it depends on where you are. Let's 
look at Georgia where they have a special needs scholarship. It 
can go as high as $19,000, depending upon what needs you have. 
The laws are specific and change throughout the state. North 
Carolina is one example, but there are others. It is a myth 
that all--there are kids in voucher programs and others that 
are ELL students. In Washington, D.C., the opportunities 
scholarship program, I went to an event where you had parents, 
many of them or their children, English is their second 
language, there are other programs in this city, so I would 
recommend law--
    Mr. Jeffries. My time has expired, but in Washington, D.C., 
there are 53 programs participating in the school voucher 
initiative, and the majority of students only attend eight. 
That is not really school choice. I yield back.
    Chairman Kline. The gentleman's time has expired. I would 
now like to recognize another champion of school choice, 
another Indianan, a Hoosier, I guess they are, Mr. Rokita. You 
are recognized.
    Mr. Rokita. I thank the chairman for the hearing. I thank 
the witnesses for their time. I want to first go to Mr. 
Robinson just to see if he wants to continue with his answer 
that Mr. Jeffries questioned him about, if you have any more to 
add to that. Time ran out.
    Mr. Robinson. Oh, sure. It is quality versus quantity. 
Sidwell Friends and other high performing schools are part of 
the program. Those are options that would not be in place. Same 
thing in Milwaukee, same thing in New Orleans and other states.
    The gentleman left from Milwaukee, one point I wanted to 
mention, it is true there was actually someone who used public 
dollars to buy a Cadillac, there are surely private school 
providers who use the money for different things, the Teachers 
Union made sure they highlighted the private school provider 
buying the Cadillac, but I would like to see the Teachers Union 
also highlight the thousands of children through a quality 
education who graduated from high school and college who are 
able to actually buy their own Cadillacs because of the 
education they received in a voucher program.
    Mr. Rokita. Excellent point, Mr. Robinson. That goes to one 
of my other questions. In fact, we are concerned about 
accountability as Mrs. Fudge stated, and that is true, but as 
to these public school choice programs--private school choice 
programs, like in Milwaukee, is it not true there is scrutiny 
there. There are reports made. When you look at those, that 
scrutiny, relative to what the traditional public school 
scrutiny is, is it not accurate that these programs do get more 
scrutiny?
    Mr. Robinson. The Wisconsin Department of Public 
Instruction, actually, I will use the term broadly, regulates 
and oversees the program. If you think there is no 
accountability, talk to the private schools that were closed 
because of financial malfeasance and other problems.
    If you look at Florida, Florida's program, the tax credit 
program, those students who take public money in fact are 
required to take a test, either the state test or NAEP test, 
and that information is made available to the Department of 
Education, and we give an update to the legislature.
    In Virginia, we have a tax credit program, relatively new. 
In November of last year, a report was submitted to the 
legislature on the number of students who were participating.
    Departments of Education for the most part for tax credits 
could be a Department of Revenue or Taxation, are in fact 
overseeing the programs, and trust me, they have actually 
closed programs, and there is accountability there.
    Mr. Rokita. I have one more line of questioning for you. 
Your testimony focused a lot on research. Dr. Huerta's 
testimony focused on that, too. As the Ranking Member stated, 
the data somehow is saying that on average, public school 
choice is just average. Do you want to comment on that?
    Mr. Robinson. Well, CREDO said it was more than average, 
and that was 42 urban areas and 22 cities. We looked at the 
gold standard 13 studies. They are actually showing, for 
example, you have Cohen 2008, eight points in reading, seven 
points in math. Green 2001 in Charlotte, six points combined in 
reading and math. Green 1998 Milwaukee, six points in reading, 
11 points in math.
    Some studies showed, particularly with African American 
students, five percentage points for math, and particularly 
those coming from low performing schools.
    At the end of the day, we can debate statistics all night. 
When you talk to parents, what they want to know is a school 
good, is it safe, and will my child have an opportunity to 
advance in ways I could not. That is how they make their 
decision.
    We as thinkers and social scientists, we can debate the 
nuances, but for parents who have to make real world decisions, 
they are making decisions and voting with their feet. I think 
we should listen to that. The research matters, and it seems 
to--
    Mr. Rokita. Excellent. Ms. Merriweather, do you agree with 
what has been said by Mr. Robinson?
    Ms. Merriweather. I do, and I just would like to add that 
when the discussion that we are having here today seems to not 
be the discussion of whether we should have school choice or 
whether we should not, it just seems accountability, and I 
totally agree there should be checks and balances with private 
schools, charter schools, virtual schools, all forms of school 
choice.
    I am thankful to hear that the discussion is not whether 
this program is not effective and not needed, rather, it is 
where do we come in and make sure everyone is accountable.
    Mr. Rokita. Thank you. In the time I have remaining, 
sticking with you, Ms. Merriweather, what do you think about 
the allegation, the comment, the opinion that these programs 
simply take money from low performing schools, from poor 
neighborhoods, and move it to more effluent neighborhoods?
    Is that valid?
    Ms. Merriweather. I do not know the rules and regulations 
of it. I just know when I was in school and when my siblings, 
my biological siblings, were in the public schools, the schools 
that we went to were low performing, and we did not have all 
the resources that we needed, and the teachers dreaded coming 
to school, and if we acted out, which most of us did, we were 
given punishment that was not good.
    When I went to a private school, when I started trying to 
act out and do those types of things, I was chastised in 
different ways. I was given alternative ways to cope with the 
things that I was feeling at home, the social issues that I was 
actually dealing with.
    Mr. Rokita. Thank you, Ms. Merriweather. Mr. Chairman, it 
seems that what Ms. Merriweather is saying is we need universal 
school choice for every student.
    Chairman Kline. The gentleman yields back. Ms. Clark?
    Ms. Clark. Thank you, Mr. Chairman. Thank you to all of the 
panelists who are with us today. I could not agree more than 
with the gentleman from Indiana when he said that this is the 
civil rights issue of our time, access to quality education for 
every single student, no matter what their income, no matter 
what their zip code is.
    Ms. Merriweather, you have an inspiring story that fits 
right into that narrative of how do we provide that for every 
single child in this country. It seems like sometimes we get 
focused on choice is a way to get us to that goal, but choice 
is not the goal itself.
    Representative Bryan, I was looking at some numbers from 
North Carolina, and these are rough numbers, but there 
approximately 120,000 students served in private schools, about 
60,000 more in charter schools in North Carolina, and you have 
approximately 1.5 million school age students, children in 
North Carolina.
    How when you were looking at designing your choice 
programs--did you look at how we build a system? Obviously, you 
do not have the capacity or anywhere close to serve the 
majority of children, so how did you look at designing a system 
that would actually help every child get that opportunity?
    Mr. Bryan. Well, I think that is a good question and 
actually a broader question. I think we looked at a lot of the 
Florida tax credit program, which had been running for 10 
years, and was running successfully with public and private 
schools really partnering in some ways. Superintendents that 
had been opposed to programs like this now feeling like they 
were able to partner with many of these private schools.
    We looked at it and focusing really on the most 
underperforming and the highest poverty kids. We were focused 
on a particular issue and an immediate need, which again is if 
you are a parent and your kid is in a school that is not 
serving them well, you want an immediate option to get them in 
a school that--
    Ms. Clark. Was that your focus, immediate need? Were you 
looking at all at how to build a system and create 
opportunities through the system?
    Mr. Bryan. I think it is both. I think we are also doing 
things on the larger scale public school side from making sure 
we are focusing on our bottom performing schools.
    Ms. Clark. Do students who apply for a voucher or go into 
your charter school system need to come from underperforming 
public schools?
    Mr. Bryan. Yes, generally.
    Ms. Clark. That is a requirement for getting a voucher?
    Mr. Bryan. Yes. You can go in as a kindergartner without--
the main students are transferring from the public schools.
    Ms. Clark. Okay, and how does that fit in with private 
schools, as you described, having the freedom not to share 
information or accountability? How do you build a better system 
when you do not have that information on how students are 
faring?
    Mr. Bryan. Well, the parents know how their students are 
faring, and I think they are the ultimate form of 
accountability, is a parent feeling like their kid is being 
successful in that school. We know--
    Ms. Clark. How does that feedback from an individual family 
and parent get back to the public school system where the 
overwhelming majority of students are?
    Mr. Bryan. Well, I mean, the easiest thing is if a parent 
does not like their school, they will not exercise on the 
option again. They will go back to the public school if they do 
not feel like the school is serving them well.
    Ms. Clark. It is really a program based on the individual 
family, not the school system, not building up all North 
Carolina schools?
    Mr. Bryan. Well, I mean like any small program, I think 
there is an acknowledgment that the vast bulk of our students, 
just like what has happened in Florida, Florida has had this 
program for 10 years, and the vast bulk of students remain in 
traditional public schools. They have also expanded and grown a 
lot and it has come to serve those families very well, 
understanding their unique needs, they are hard to meet, and 
sometimes moving to a private school environment is a great fit 
for them.
    Ms. Clark. Dr. Huerta, have you seen any state or school 
system that has used the school choice program, whether it is 
charter, private, voucher, to effectively increase opportunity 
and quality of the public school system overall? Have you seen 
any examples of that?
    Mr. Huerta. I think we see across states many examples that 
choice has actually increased choices for families, but as I 
indicated, the evidence is quite mixed with regard to the 
issues of quality.
    If you are asking me whether choice has increased quality 
overall--
    Ms. Clark. That is what I am asking.
    Mr. Huerta. The facts are clear it does not. We see some 
level evidence that students are performing about the same and 
then we see some very compelling evidence that shows kids in 
some of the privatization mechanisms are actually not faring as 
well.
    As a mechanism for improvement compared to what we see 
where the majority of kids are, it is a system that has 
actually not shown sufficient evidence.
    Ms. Clark. Thank you very much.
    Chairman Kline. The gentlelady's time has expired. Mr. 
Carter?
    Mr. Carter. Thank you, Mr. Chairman, and thank all of you 
for being here. Ms. Merriweather, you are a beam of sunshine in 
our day today. Thank you for being here and thank you for your 
story. You know it is a honor for us to serve as 
representatives of the people, but like anything else, 
sometimes it can be a grind, and sometimes we wonder if we are 
making a difference, but it is stories like yours that keep us 
going. Thank you.
    I want to ask you, do you know of any other stories similar 
to yours? Have there been other people, friends of yours, that 
you have known? You put it so well. I have always said poverty 
breeds poverty, and we have to break that cycle, and you said 
that, that cycle has been broken. Do you know of any other 
examples?
    Ms. Merriweather. Most definitely. I love to tell people, 
everyone in my class, all six of us, we all went off to 
college, and we all are now in grad school or are working, and 
we are making a different life for ourselves and many of our 
parents, you know, had to grow up unfortunately in, and that is 
the story of many of the other kids that went to my school. 
They have made a difference and they are excelling in school 
currently and have graduated from high school.
    Mr. Carter. Well, thank you again. Mr. Bryan, I had the 
honor of serving in the Georgia state legislature for 10 years. 
I was a co-sponsor of both the voucher bill and the special 
needs scholarship bill, and we passed both of those bills, and 
that we have in effect now, and that I understand you have in 
effect in North Carolina as well.
    Can you tell me about the success of that program? Has it 
been successful, and what do you attribute it to?
    Mr. Bryan. Again, I would say our programs are new, so 
anything I say is mostly anecdotal. Again, I had the 
opportunity as I mentioned in my opening remarks to go visit a 
school that is right in uptown Charlotte and see 23 of the kids 
exercising on it, exercising on the opportunity scholarship, 
and just to hear stories about how excited their families are. 
The school is performing wonderfully. I do not know the express 
scores for each of those kids, but I know they are doing well, 
and it is an academically rigorous environment.
    Again, I think it is testimonials like the ones you have 
heard today that make you realize that parents and students are 
excited and happy with their choices. I think that tells you 
there is success happening.
    Mr. Carter. You see more parental involvement, you see more 
excitement, if you will?
    Mr. Bryan. Yes, definitely. We now have rallies with 
parents coming, people who want to get the scholarship, people 
emailing us constantly saying how can I get a scholarship, I 
would really like to get one.
    Mr. Carter. Great. Mr. Robinson, in some of your recently 
published work, you say an estimated 18,500 families, children, 
educators, and charter school employees gathered in Brooklyn, 
Brooklyn, New York, I assume, to rally in support of charter 
schools, after the Mayor attempted to stop the growth of 
charter schools; is that correct?
    Mr. Robinson. Correct.
    Mr. Carter. That to me seems to be a clear sign that there 
is a lot of positive growth and the support behind the charter 
schools and behind their expansion is there. What I want to ask 
you is this, when you see that, what about the remaining, the 
schools that remain? What do you see happen?
    I am a big free market guy. I believe in competition. What 
I am trying to ask is what do you see happen to those other 
schools?
    Mr. Robinson. So, if you look at Milwaukee, the three 
previous superintendents, actually, it is four, said while they 
had challenges and concerns about the program, they actually 
saw the Milwaukee Parental Choice Program encouraging them to 
do better, so as to actually keep more students in public 
schools. That is a fact.
    You mentioned Georgia. I am on the board of the GOAL 
Scholarship Program. We are the largest one in Georgia. We have 
13,212 students who we have invested money in, the majority of 
them low income and working class families, making a tremendous 
difference.
    There are now superintendents and school boards that are 
saying guess what, what are they offering at the private school 
that we can do differently, so that is a change.
    I would also like to say that when I worked for D.C. Public 
Schools here in the 90s, traditional public schools do not 
educate all students, even though they have a constitutional 
obligation to do so, meaning there were some students with 
special needs that were so severe they actually had to partner 
and contract with private companies, non-profit companies, and 
for profit companies. Guess what? Their charter schools would 
actually partner with traditional public schools for services 
as well as those in the non-profit and for profit market.
    We often have to go outside of our own realm to get 
support, but places like New York and others are showing there 
is a demand for it, and we should support it.
    Mr. Carter. Right, so competition works. Thank you, Mr. 
Chairman.
    Chairman Kline. I thank the gentleman. Ms. Bonamici?
    Ms. Bonamici. Thank you, Mr. Chairman. It has been an 
interesting discussion this morning. I want to start by 
following up on an earlier comment. Representative Bryan 
mentioned Pell Grants as if they were analogous to vouchers, 
but we have not as a country made access to higher education a 
universal right like we have with K-12 education. If we do, 
then it will be a sound analogy, but without that, we are 
talking apples and oranges.
    It has been just a couple of months since our committee 
helped pass the Every Student Succeeds Act, which was a 
historic achievement, upholding the civil rights legacy of the 
original Elementary and Secondary Education Act.
    That legacy was really part of a sustained commitment to 
deliver support to underserved public schools so every student 
in every community has access to a high-quality education.
    Ms. Merriweather, your story is very inspiring. In fact, it 
inspires me to work even harder to make sure that every student 
in every school has caring teachers and small classes and high 
expectations.
    I am concerned that today we are discussing the possibility 
of diverting taxpayer dollars from public schools to give 
students resources to attend private schools, which frequently 
are not held accountable to serving all students.
    It is also unfortunate that school privatization efforts 
also tend to be based on the premise that our public schools 
are failing. That term keeps coming up, ``failing schools.'' Of 
course, we could do more to strengthen public education for all 
students, and there are students who struggle more than others 
in our schools.
    We made significant progress with the Every Student 
Succeeds Act, but let's look at what our schools are doing 
well, especially when we consider resource challenges and the 
expectations that we rightly put on our public schools to serve 
every student, regardless of socioeconomic background, ability, 
or special needs. Today, drop-out rates are declining, more 
students are being challenged in advanced courses, and 
achievement gaps are narrowing.
    We as policy makers have a responsibility to ensure an 
excellent education for all students in our country, and we 
should continue to work on policies that are consistent with 
that commitment.
    In my district, Beaverton, Oregon is a school district that 
has several public school options in addition to comprehensive 
high schools. For example, there is an international school and 
a science and technology school, arts, and a health careers 
option, without diverting dollars to private schools. I firmly 
believe in that kind of choice within the public school system.
    Dr. Huerta, I want to follow up on the consequences of 
school privatization efforts for students with disabilities. 
There was just an article in the Oregonian Newspaper in my 
state about Joey. Joey was attending a Catholic school in 
Portland, and he has Down Syndrome. He had some behavioral 
issues at school like many students do. His parents are 
dedicated to their parish, and they were actually paying about 
$2,000 a month for extra classroom assistance, but the school 
where Joey's three siblings attended and where his friends are, 
asked Joey to leave.
    Your testimony mentions cost differentials and recognizes 
that delivering high-quality services to students with 
disabilities requires an investment of resources. So can you 
discuss how voucher programs relate to students like Joey and 
his circumstances? Do they generally offer sufficient resources 
to permit students like Joey to attend parochial and other 
private schools?
    Mr. Huerta. Thank you for your question. There are some 
private schools nationwide that do provide some special ed 
services. Private schools in general are not required by the 
states to provide the same level and quality of special ed 
services that public schools are, including not having to hire 
certified teachers that have been certified in special 
education. I think that is very important to remember.
    In states like Florida where there has been a long-standing 
special ed voucher, when a parent chooses to use that special 
ed voucher and go to a private school, they are also 
surrendering the right that is provided to them by the federal 
funding for special education.
    Ms. Bonamici. I do not want to interrupt, but I really want 
to get this other question that is so important. I represent a 
number of towns that are small, and they are rural, and their 
schools are the community hubs and sometimes the place where 
several generations of families have attended, so school 
privatization does not resonate in these towns because the 
closest alternative school might be typically another public 
school in another small town far away.
    How do statewide voucher programs affect financial 
stability in rural public education?
    Mr. Huerta. I think it would have the same effect as it 
would in urban places. There are states that allow some public 
monies to flow to private schools where there are not enough 
public schools available, including resources for books and 
transportation and a variety of other things.
    The effect on the economies of scale in public schools when 
public money is diverted to private schools is similar. There 
might be a larger impact actually in some of these rural areas 
because the fact is the public schools still have to serve the 
remaining kids even when they lose a small proportion of them, 
and that might have a very strong and negative impact on the 
finances of public schools.
    Ms. Bonamici. Thank you. My time has expired. I yield back. 
Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentlelady. Dr. Heck?
    Mr. Heck. Thank you, Mr. Chairman. Ms. Merriweather, like 
my colleagues, I also want to applaud you for appearing here 
today and sharing your very inspirational story. I can tell you 
for the five years I have been on this committee, that is the 
most moving testimony I have heard, so thank you for being 
here.
    My state, Nevada, just passed education savings account 
legislation last year in 2015, and it was just rolled out just 
this last month in January. In that legislation, 96 percent of 
the students statewide would be eligible, special needs and 
families with incomes up to 100 percent of the free and reduced 
lunch program standard would be able to receive 100 percent of 
the basic support for pupils, others would be eligible to get 
90 percent of that basic support, tuition, home schooling, 
tutoring, educational materials and so on.
    In a recent poll, 61 percent of those parents in Nevada 
said they support that program, 21 percent were opposed. Of the 
61 percent that were pro, 60 percent were union households, 71 
percent were Hispanic households.
    The program has been called the first universal ESSA 
program nationwide by the Friedman Foundation, and in 
supporting the program, our Governor, Brian Sandoval, stated he 
believes fixing Nevada's perpetually underperforming education 
system must include more resources for public schools, and he 
and our legislature actually increased public school funding in 
the last session, and quote ``As well as robust options for 
school choice.'' End quote.
    Even with that overwhelming support, as we expected, a 
court case has been filed challenging the new program.
    Mr. Robinson, in your written testimony, you offer several 
suggestions for congressional action, and you mentioned the 
possibility of a Government Accountability Office study about 
how federal funding rules prevent states, and you specifically 
mentioned Nevada, from using federal education funding to 
support the SEAs.
    Do you have an opinion on how those federal rules could 
hamper those efforts?
    Mr. Robinson. I used Nevada because you are in fact 
universal, so it was a little different than the other states. 
If you are looking at actually using Title I and IDEA money, it 
is often tough to do because at the federal level, you will set 
rules, they have to (a) go through a Department of Education, 
and (b) go to the local system. There may be ways of actually 
streamlining that to get that either directly to the local 
district or the superintendent of the school board can actually 
make a decision, or to streamline the process to go directly to 
families particularly if they are the ones using their debit 
card to make purchases for the kind of services you mentioned.
    Mr. Heck. I appreciate that. As you mentioned again, being 
the first universal ESSA program, could you explain what makes 
Nevada's program universal versus some of the other ESSA 
programs that are out there around the country?
    Mr. Robinson. So, some of the other ESSA programs are 
focused on special populations, either special needs, at times, 
military, yours is open to any student who is within--96 
percent of your students who are in the public school system 
for at least a number of days.
    Yours is different in the fact that you can receive one, I 
can receive one, someone can as well, even though he or she may 
not be special needs or otherwise.
    Mr. Heck. Thank you. Thank you very much, Mr. Chairman. I 
yield back.
    Chairman Kline. I thank the gentleman. Mr. Polis, you are 
recognized.
    Mr. Polis. Thank you, Mr. Chairman. I appreciate the 
committee highlighting School Choice Week, and of course, we 
are doing it a week late, but you know, it is never too late to 
celebrate school choice, and we should celebrate school choice 
all 52 weeks of the year. I want to thank our witnesses for 
coming before us today.
    My home State of Colorado has a number of mechanisms to 
allow parents to choose schools. We have open enrollment within 
districts. We have open enrollment between districts. We not 
only allow districts to charter schools, we have a state 
chartering network.
    The history of incorporating privately run schools into the 
school choice network has been legally troubled in Colorado. 
The first attempt in recent history was in 2003 through an 
opportunity contract program, which effectively required some 
of the low performing districts to reach out to private 
providers within their jurisdiction and create contracts to 
provide for education.
    This was struck down by our State Supreme Court on local 
control grounds. We have local control incorporated into our 
governing document and in our constitution.
    The more recent attempt was at the local level where one of 
our large suburban school districts, Douglas County, elected a 
school board that chose to pursue a voucher-like program, and 
again, while they implemented that for a year, it was struck 
down by the Supreme Court on very different grounds, namely 
using state money to fund religious schools. We are one of the 
states with language in our state's constitution that prohibits 
that or not.
    The status of the voucher program with regard to secular 
schools remains in question. There were six secular schools in 
the initial roll out from Douglas County.
    My question for Mr. Robinson is given that legal framework 
we have had in Colorado, the most effective way that we have 
seen on the ground to incorporate private providers into the 
public education network has been through contract education.
    I see that is not one of the areas you have highlighted. 
You have highlighted tax credits and vouchers. I wonder if you 
have any thoughts on contract education, namely making school 
districts that choose to contract with private providers, and I 
will give you an example, we have had for well over a decade 
Denver Public Schools, one of the largest school districts in 
our state, fluctuates between first and second, contracted with 
a private provider called Escuela Tlalelolco, a predominately 
Latino school, and effectively compensated them for the 
students that were enrolled there.
    What are your thoughts on contract education and is that 
something you might be able to incorporate into your global 
look at school choice?
    Mr. Robinson. When we mention school choice, we primarily 
have focused on it from 1990 forward, but if we actually go 
back as early as the 1970s, we had school choice in the context 
of magnet schools and open enrollment, as you mentioned.
    Many school systems today actually already contract with 
providers, non-profit, and for profit, simply to provide 
services that it cannot.
    I think at times we overuse the term ``privatization'' as 
if somehow for profit companies are not involved in education 
except for vouchers, when in fact the desks students sit in, 
the computers they use, the pencils they use, at times, 
uniforms, all of that often, most of that is driven by for 
profit companies, so we already have a contracting system in 
place, and I think it makes sense where it should be used.
    Mr. Polis. And both school districts, I would point out as 
well, as well as charter schools in Colorado provide contract 
education opportunities, whether that is online or physical.
    My next question is for Mr. Bryan. It came up in the 
discussion when you were asked some questions about your bill 
from Ms. Fudge and others. The students that are publicly 
funded do take the state assessments, is that correct, under 
your bill?
    Mr. Bryan. That is correct.
    Mr. Polis. I want to be clear because there was some 
discussion about that, that somehow there was freedom or 
escaping accountability. The students that are not publicly 
funded, that is up to the school whether they take the--
    Mr. Bryan. Let me be clear in my statement. They have to 
take a nationally normed test. That is the requirement.
    Mr. Polis. Is that the same test that other public school 
students take in your state?
    Mr. Bryan. Not necessarily.
    Mr. Polis. Well, you know, again, there sounds like there 
is an accountability problem there. I think where taxpayer 
funds go, there needs to be accountability, and in all the 
incidences of school choice in our state and certainly the 
voucher programs that I am aware of, Milwaukee and Washington, 
D.C., among others, all of those students would take the same 
test as other public school students.
    Of course, schools that fail to achieve progress would 
presumably face the same consequences as other public schools, 
which could potentially be loss of funding. It depends under 
state laws. Regardless of whether a school is a public school, 
a charter school, or an independent school that somehow 
participates in public education, what we as policymakers 
should care about is quality.
    Last question--we are out of time. I was going to ask about 
IDEA, and mention that many school districts who are already 
responsible, of course, for meeting the educational needs of 
each student already contract with many private providers for 
special education services to ensure that those students' 
learning needs are met.
    I thank the chair for the hearing and the time, and I yield 
back.
    Chairman Kline. I thank the gentleman. Mr. Messer?
    Mr. Messer. Thank you, Mr. Chairman. I appreciate the 
debate we have had today. I think it has been very 
enlightening.
    Every time I am back in my district, I try to go to a local 
public school. I try to visit charter and alternative schools 
all around the country. I have had the opportunity to go to the 
BASIS School here in Washington, D.C., which is an amazing 
school where at the junior high level or middle school level, 
kids are taking Latin, chemistry, biology, physics, and in 7th 
grade they are doing a second language.
    Contrary to some of the testimony by some folks across on 
your side of the dais today, they are taking kids from every 
zip code in the District of Columbia in that school.
    Ms. Merriweather, I was going to turn to you because when I 
have had a chance to meet with these amazing kids, they asked a 
series of very tough questions of the congressman who was 
there, but their first question was this: why cannot every kid 
in Washington, D.C. have the same opportunity I have here at 
BASIS.
    Maybe I will just ask you to talk a little bit. You have 
given amazing testimony about the opportunity that came to you. 
What are your thoughts about whether everybody ought to have 
those same kind of chances?
    Ms. Merriweather. Thank you so much. It is heartfelt. I met 
a little boy, and currently in Florida, the program is being 
sued, and he was looking at me crying, and he said am I going 
to be kicked out of my school. It was so heartbreaking because 
I actually felt it and I asked myself, you know, what if I was 
not given this opportunity to be able to attend this private 
school, and would I be the same person I am today, and my 
answer to myself was no.
    It is heartbreaking that every kid does not have the 
opportunity to attend a school of their parents' choice because 
so many times low income kids are trapped into a district where 
their schools are underperforming.
    I would like to add that the elementary school that I went 
to, one of them, it was--I hate to say this--it was terrible. 
Today, it is not, you know. They turned around and it is a 
magnet school.
    It is great that there are systems of changing and evolving 
schools, and that is the whole point of this.
    Mr. Messer. Yes. Thank you very much. Mr. Robinson, I think 
it is important as we talk about framing school choice and what 
the appropriate federal role might be to recognize that over 80 
percent of the education dollars spent in our country are not 
federal dollars. It is somewhere south of 20 percent that is 
being funded by the Federal Government, and probably the 
biggest pool of that is Title I dollars, and I think that is 
roughly $15 billion, right?
    Could you comment just a little, one, about how effectively 
we are using Title I dollars today, and maybe expand upon, you 
made the suggestion that we could look at using those dollars, 
with what I would consider the ultimate local control, allowing 
it to be portable and for parents to decide how that money 
would be spent.
    Mr. Robinson. I have had a chance to see Title I in action 
in both Virginia and Florida. Let me say many families would 
find themselves in a tough situation in the absence of a Title 
I program. I think what one of your former colleagues many 
years ago did, Augustus Hawkins, who was a Congress member of 
my area in Los Angeles many years ago, who helped push the idea 
that there are simply some families and communities where there 
needs to be an investment.
    I am glad that is in place. It is a good social safety net. 
I have seen some great results from kids who have gone to Title 
I schools, who with the right investment of teachers, other 
human resources, and frankly technology, have seen some gains.
    Unfortunately, I have also seen some challenges, wasteful 
investments. Often times, we mention private schools not having 
all the appropriate paperwork. We have some of those challenges 
in our public school sector as well.
    The idea about empowering parents to use Title I if we use 
the idea of a debit card is not per se to divert money away as 
much as to give those parents they have already invested in the 
system. It is taxpayer money. It is a state issue. This is one 
way of actually empowering parents to do something differently.
    You frankly will even find some superintendents of school 
boards who may want to experiment with this idea to say let's 
try to see how it works. Through small evaluative processes, we 
can actually found ways for both public and private 
institutions to learn from each other.
    Mr. Messer. Thank you, appreciate your testimony.
    Chairman Kline. The gentleman yields back. Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Chairman Kline and Ranking Member 
Scott for today's hearing, giving us an opportunity to focus on 
the improvement of educational opportunities for all students 
in every public school.
    Mr. Chairman, I ask unanimous consent that my brief opening 
statement be made part of this hearing.
    Chairman Kline. Without objection.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Mr. Hinojosa. My first question is going to be directed at 
State Representative Rob Bryan. Concerns about the effects on 
academic achievement of the North Carolina private school 
choice programs have arisen from both the right and the left, 
so I am curious about data collection regarding student 
achievement, and what evidence demonstrating the efficacy of 
North Carolina's private choice programs is available.
    Lastly, how is that data used by the state to ensure an 
equitable education is being provided to students in these 
programs?
    Mr. Bryan. The programs are too new to really obtain a lot 
of data, so I could not answer, again, except for anecdotes, 
but I would say again I think when parents choose a program, 
they keep their kid if they are satisfied with the results. 
Again, they do have to take national normed tests, and the 
parents get all that information. If my kid was not doing well 
and I move them to another school, I am expected to see them 
doing better or I am not going to keep them there. I think that 
is the best evidence.
    Mr. Hinojosa. Thank you. My next question is for Mr. 
Robinson. Can you tell us what mechanisms are in place for 
monitoring the private schools in receipt of public dollars 
through choice programs to protect against discrimination and 
remedy acts of discrimination if they occur?
    Mr. Robinson. In Milwaukee, we use that as an example. If 
you take a look at the legislation that put that law into 
action, they actually have a line in there where they say the 
private schools who participate must adhere to the 1964 Civil 
Rights Act.
    We also know that over the last three and a half years, I 
believe, the Federal Government looked into an allegation that 
there was rapid discrimination against special needs students 
in the voucher schools in Milwaukee. I believe as of January, 
they ceased their investigation to find there was in fact no 
widespread discrimination against special needs students.
    Are there some challenges? Absolutely, because we are still 
dealing with human beings and aspects, but we have put those in 
place. If you take a look at other state laws, they have also 
included the 1964 Civil Rights Act to make sure that is in 
place to deal with discrimination.
    You also have inspector generals within the Department of 
Education either internal requests or outside requests to look 
into that, so we have some safeguards in there. I would be 
lying if I tell you there were not slip up's and things that 
fell through, but we at least put those mechanisms in place to 
address those issues.
    Mr. Hinojosa. Thank you. My next question is for Dr. 
Huerta. Dr. Huerta, based on your research, can you tell us 
more about how voucher and tuition tax credit programs benefit 
low-income families, and in your response to my question, would 
you also tell me if Native American Tribal schools are being 
impacted by this issue we are discussing here today?
    Mr. Huerta. I will answer the second part of your question, 
Mr. Hinojosa, first, and that is I am not familiar with 
evidence that has that direct impact on Native American 
students.
    With regard to the first part of your question, we know 
that vouchers and tuition tax credit programs are serving kids 
that come from very diverse income brackets. One of the 
interesting pieces in the research that I have actually been 
looking into is the extent to which we begin to identify kids 
from different thresholds, because often times, we will measure 
the impact that vouchers might have on kids, for example, for 
kids that are under the poverty line, but we treat all those 
kids under that poverty line as one monolithic block, and I 
think it is important to begin to be able to disentangle that 
because we see some evidence that some of the low income 
families that are choosing are the ones that are right below 
that threshold, and those are families that are very different 
than the kids who come from families that are much lower than 
that threshold.
    I want to briefly talk about the issue around 
accountability and specifically the Wisconsin piece that was 
just brought up. In the case that was mentioned by Mr. 
Robinson, it is important to remember that one of the reasons 
that the lawyers from the Federal Government that were actually 
investigating what was happening in Wisconsin had to make the 
conclusion they made was because schools in Wisconsin are not 
responsible or not compelled to actually collect a lot of the 
data that they were actually trying to analyze, specific to the 
types of kids they are serving, whether kids with IEPs' needs 
were being served or not.
    The Feds had to actually throw their hands up somewhat 
because they did not have the data, because the state does not 
require these private schools to collect or report that data.
    Mr. Hinojosa. That is interesting.
    Chairman Kline. The gentleman's time has expired.
    Mr. Hinojosa. My time has expired. I thank you all for your 
participation here today.
    Chairman Kline. Mr. Allen?
    Mr. Allen. Yes Sir Thank you, Mr. Chairman, and thank you 
to the panel for being here today and your testimony on this 
important subject. Obviously, I think the American people have 
spoken, and they want choice, and they do want accountability. 
I think each one of you demonstrated that as well.
    Ms. Merriweather, I have had an occasion to visit some 
universities and some schools in the district. Frankly, in 
talking with the administration at one of the major 
universities, I was shocked to learn, I said what is your 
biggest challenge, and they said the emotional health of our 
students.
    Of course, I remember back on my college days. Those were 
some of the best days of my life, toughest days, but was a 
great time in my life.
    I was more shocked to go into a fairly wealthy area of the 
district and talk to an elementary school, and I'm sitting 
there with the administration, and I said what is your biggest 
challenge, and they said it is the emotional health of our 
students.
    Now, obviously, there was a time in your life where you 
were in a bad place. I mean you were dealing with things that I 
think is unfair for a young person to have to deal with, to be 
honest with you. I am just totally amazed to hear your 
courageous and heroic story.
    What was it that turned you around? What I told these folks 
at the elementary school is I said we have to address the mind, 
the body, and the spirit, the three aspects of the student. 
What is it that turned your life around?
    Ms. Merriweather. I thank you for that because I think you 
bring up a very valid point because sometimes in a school 
setting, we forget that a child is a whole person, and that 
there are things they are dealing with outside of school.
    I think that was it for me really, to be at a school where 
someone was not only interested in my academia, but they were 
actually interested in my life and bettering my life, and 
giving me the things that I needed.
    I mentioned that they helped me pay for my college 
applications and testing because I would not have been able to 
do it by myself or just with my godmother. They assisted me 
with that also. They cared about the whole person.
    I am not saying that public schools do not either, but 
there are so many students that it is kind of hard to actually 
invest in each one of them.
    Mr. Allen. Well, by law, I am not sure our public schools 
can address that, the whole, by law. Teachers are restrained 
from doing the very thing that saved your life, because they 
could be sued.
    I will tell you an example of that. We have a school--of 
course, you know, the facts are this, and we can talk about 
accountability all we want to, but the reason I am in Congress 
is because of Heritage School in Augusta, Georgia. That is a 
Christian school. That school takes in the kids, innocent kids, 
who are declared losers in the public school system.
    Only one of those children has not graduated from high 
school, and they are pursuing a music career in Nashville, and 
will probably be able to buy General Motors based on their 
talent level. That is the only student who has not finished 
high school and most of those kids are in college, whereas in 
Richmond County, we have 33,000 kids, we graduate about half of 
them in the public school system.
    Mr. Robinson, those are the facts. Why do we keep debating 
this?
    Mr. Robinson. It is about power, and that is what the 
discussion is about, who is going to control public dollars and 
for what reason. There are examples from most of the choice 
states that they are taking hard to serve children. It is 
simply a fact, but when you play power politics, the goal is to 
try to take information and use it for a way to prove the 
obvious.
    There are some kids who simply did not do well in a 
traditional public school. It does not mean the public school 
is a horrible place. It just was not a good fit for them.
    There also was a comment about if a family is at the cusp 
of 185 percent of poverty versus someone who is lower, that 
they are different students, different kinds of families. 
Statistically, yes, but they are unified around one thing, we 
want options and we want to invest our money the way we see 
fit.
    At the end of the day, this is about power, but if we want 
to remain powerful as a nation, we have to invest in our 
children and the schools that work.
    Mr. Allen. Yes. For disclosure, we elected, my wife and I, 
to send our children to a Christian school. Mr. Bryan, we do 
not regret that. In fact, our children have got a good 
education and they seem to understand a great value system.
    Where in the value system--I am out of time here--from the 
standpoint of what you are doing in North Carolina--
    Chairman Kline. The gentleman's time has expired. Ms. 
Adams?
    Ms. Adams. Thank you, Chairman Kline and Ranking Member 
Scott. I want to thank the witnesses for testifying. I had 
another meeting that overlapped. I did have a chance to read 
your testimony.
    Education has been a long passion of mine, especially as it 
relates to low income students who are often students of color, 
and I am one of those, graduated from high school, public high 
school in Newark, New Jersey, grew up in the ghetto. I taught 
for 40 years as an educator in Greensboro, North Carolina.
    I also served in the North Carolina House for 20.5 years, 
and I did not get a chance to serve with you, Representative 
Bryan, but while I was there, I was opposed to efforts to 
funnel our public dollars to voucher programs, and I am still 
opposed to that today. I do not think that was a good idea.
    However, despite the strong efforts, we were left in North 
Carolina with an opportunity scholarship program, and I think 
there are still opportunities that are not there for all of our 
children. Representative Bryan, I know you are a strong 
proponent of the program, but I have to let my colleagues who 
are left here know it is not as good as it sounds.
    The program was initially struck down as unconstitutional, 
rightly asserted that the General Assembly was seeking to push 
average students from low-income families into non-public 
schools in order to avoid the cost of providing them a sound 
basic education in public schools.
    I just know a greater percentage, 90 percent of our 
children, will be educated in public schools. Unfortunately, 
the State Supreme Court overturned this ruling on ideological 
lines, and to add insult to injury, Chief Justice Marshall or 
Martin said that those taxpayers who allege that the program 
failed, failed to show that they suffered harm.
    I really find it hard to believe that taking limited funds 
that the North Carolina legislature chose to cut from public 
dollars and sending those to private schools that are not held 
to the same level of accountability is not harmful, it is 
harmful.
    Dr. Huerta, I have a question for you, if you would expound 
upon some of the harmful outcomes of voucher programs in other 
states, and offer some insight on what you think North Carolina 
can expect for low-income students.
    Mr. Huerta. I will expound on the general context here, and 
I think it is important to remind everybody that the voucher 
and tuition tax credit programs actually contest the common 
school model and erode the ability of the state to be the 
equalizer when it is needed.
    It erodes the ability of the state to actually uphold and 
advance equity and social cohesion, Democratic goals of 
schooling, and these are values that have been long held in 
education. These tenets are actually echoed, and we talked 
about civil rights today a little bit, these are tenets that 
are basic tenets that were in Brown v. Board, when the court 
stated that education was important, and the court at that 
point said ``Education is important to our Democratic society 
as required in the performance of our most basic public 
responsibilities, and it is the foundation of good 
citizenship.''
    My concern from what the research tells us is that as we 
shift responsibility to educating our students to the private 
sector where equity is not a value, that we are moving further 
and further away from the tenets of Brown v. Board.
    Ms. Adams. In your opinion, do these adverse effects have a 
greater impact on students of color, and if so, would you tell 
us why you think that?
    Mr. Huerta. If students of color are denied access because 
private schools have the ability to choose, then yes, there 
will be adverse effects.
    Ms. Adams. Okay. Just one follow up, Dr. Huerta. How much 
work would have to be done to actually make vouchers work and 
truly give all students and their families choice?
    Mr. Huerta. A couple of mechanisms that I think can 
equalize this process. The vouchers have to be a much larger 
amount. There has to be greater accountability on schools that 
are accepting vouchers.
    One of the new trends that we see in some of the recent 
legislation is the requirement to actually take either a state 
assessment or a nationally normed referenced test, but it is 
important that most of the states who are requiring these tests 
have no consequences linked to taking a test. Simply requiring 
a test does not equate to accountability.
    There is a mechanism around the access to free and accurate 
information, which is something that is actually left out of 
most legislation at the state level, and that is the degree to 
which parents are provided the information needed to actually 
make these choices.
    There is the issue of access, to compelling private schools 
to actually guarantee access to all students.
    There are mechanisms that can make this process more 
Democratic. However, the folks who are supporting more 
privatization want to preserve the right of private schools to 
not be held accountable by the state.
    Ms. Adams. Thank you very much.
    Chairman Kline. The gentlelady's time has expired.
    Ms. Adams. Thank you, Mr. Chairman.
    Chairman Kline. Ms. Stefanik?
    Ms. Stefanik. Thank you, Mr. Chairman.
    Ms. Merriweather, I want to echo my colleagues' sentiment. 
Your testimony today was truly inspiring, and the courage and 
confidence that it takes to testify as a young person before 
Congress, I commend you for that. I also commend you for your 
advocacy in ensuring that everyone who is listening to this 
hearing today understands that achieving a high quality 
education can truly change your life. Thank you for sharing 
that empowered story.
    I wanted to ask you a question. You talked about small 
class size, additional teacher help, whether it was with your 
times tables or your reading comprehension, educating you as a 
whole person beyond just academic rigor.
    Can you give a little bit more detail on what it was like 
transitioning from your first experience in school to the 
private school that you attended, and what some of those 
difference were?
    Ms. Merriweather. Most definitely. So, Esprit de Corps was 
a church based school, a church that I actually attended. 
Coming from a public school where I kind of lived the dual 
lifestyle of acting out, not really listening to my teachers, 
and then going to church with my godmother, I lived, you know, 
a dual life.
    Going to Esprit de Corps and actually having most of the 
people that went to the church work at Esprit de Corps, it was 
very different for me and kind of a culture shock because I was 
not used to having those two worlds collide.
    By me having that experience, I actually was kind of forced 
innately to behave myself. So, that transition was very 
different for me personally, but it paid off because the acting 
in the beginning became a lifestyle, and I actually wanted to 
learn, and I actually wanted to better myself as an individual.
    Ms. Stefanik. Thank you, and congratulations on being the 
first member of your family to graduate from high school, 
undergrad, and you are on your way to getting your graduate 
degree, and thank you to your godmother for encouraging you to 
achieve the highest quality education that was available to 
you.
    I wanted to shift gears and build off of my colleague, Ms. 
Bonamici's, question regarding urban and rural, and the 
differences within the communities. I represent a rural 
district in upstate New York. I want to get your ideas, Mr. 
Robinson, on how we can expand educational choices in rural 
communities, because the model is different for upstate New 
York than New York City.
    Mr. Robinson. So, Wisconsin in 2004 to 2007 was trying to 
figure out how they could actually expand more charter schools 
into the rural areas. That is one state I would say to take a 
look at. Same thing in Georgia.
    If you look at the private school sector, I would say take 
a look at the tax credit scholarship program in Georgia. There 
are a number of providers, again, I am on GOAL scholarship, 
which is the largest in the state, but if you take a look at 
the map of Georgia, surely we have students in the Atlanta 
metropolitan area, but we serving students in Northern Georgia, 
Southern Georgia, East and West.
    We actually work with school leaders to inform us how best 
to work with them, working with students in the city and rural 
areas are different, not for all the reasons we would think, 
but there are definitely challenges, transportation is one, 
distance between home and school is another, so transportation 
challenges.
    I think we have learned a lot from listening to them, to 
figure out how we can do it well. It is not an area where I 
spend a great deal of time. I know back in Virginia, we have 
something called the ``Horseshoe,'' and we have a number of 
families there who have challenges, financially and otherwise, 
but the community college system, which I would say is one of 
the best in the nation, they are actually partnering with rural 
communities, high schools and others, to make sure that adults 
receive either GEDs, degrees, or actually can go to community 
school for support.
    I would take a look at the Virginia community college 
system and what they are doing in the Horseshoe with rural 
families.
    Ms. Stefanik. Thank you for that. Does technology play a 
role in how that model may differ? We live in the world of 
Google hangouts, of a tech based society. I think there are 
opportunities to modernize how we educate our children using 
those technological tools.
    I wanted to hear if that is part of your thinking in terms 
of expanding opportunities in rural communities.
    Mr. Robinson. There were at least nine rural school systems 
in Virginia who decided not to apply to National Science 
Foundation as individuals for a grant, they applied together, I 
believe they received $2 million, and that was to use 
technology for their students in rural Virginia, mostly of 
parents without passports, to have conversations with students 
in other countries, opening the door and getting to the idea of 
citizenship. That is one example.
    Ms. Stefanik. Thank you very much. I yield back.
    Chairman Kline. I thank the gentlelady. I think everyone 
has had a chance to engage in the discussion and debate, so I 
will move now to any closing remarks that Mr. Hinojosa might 
have.
    Mr. Hinojosa. Thank you, Mr. Chairman. In the absence of 
our Ranking Member, I would like to say that it has been very 
informative to hear each one of our panelists talk to us about 
the importance of education and how it can change your life, as 
some of you said.
    I want to close by saying that I have not been a teacher, 
but I have been a policymaker at the local school board, at the 
Texas State Board of Education, at the community college on the 
governing board, and here in this committee for the last 20 
years.
    I have learned that the investment that local, state, and 
the Federal Government can make in early childhood development, 
talking two, three, four year olds, getting to learn to read, 
is probably the best investment we could make, if we are to be 
able to move them to grade level and have them comprehend what 
they read, what they hear, that it will be much easier to get 
them to graduate from high school.
    Which was the biggest problem that I faced during the early 
years of serving as a policymaker where we had only 60 to 65 
percent of kindergartners graduating from high school in deep 
South Texas, from San Antonio down to Brownsville, that whole 
area.
    We now have many of those school districts that are 
graduating at 85 percent, and the difference has been early 
childhood reading and writing that has made them successful and 
having gone on to college.
    Thank you for your contributions, and we look forward to 
trying to put to use your recommendations. Thank you.
    Chairman Kline. I thank the gentleman. I want to thank the 
witnesses. Ms. Merriweather, again, you have been an 
inspiration to all of us, and we wish you the very best as you 
go forward, and like Ms. Stefanik, I think we need to thank 
your godmother. There are a lot of people these days who do not 
have a godmother, so I am grateful to God and to your 
godmother.
    We talked quite a bit today about accountability in choice. 
Dr. Huerta had some data that he was using. Mr. Bryan, I 
thought you made a very, very good point that there is always 
going to be accountability when you have a requirement for a 
nationally normed test, if those kids are not doing well, the 
parents are going to remove those kids.
    I think it is a valid question about accountable to whom, 
and what we are talking about here is families where their 
children are in truly failing schools. Let me hasten to say 
that I know most, by far most, of our public schools, 
traditional public schools are doing very well.
    In some states--the Hoosiers are still here in strength, I 
see, and thank you very much for that, I am sure they are very 
proud of many of their traditional public schools in Indiana, 
as we are in Minnesota, the home of public charter schools, by 
the way, the originators of public charter schools.
    In some cities in Indiana, as in some cities in Minnesota, 
Minneapolis being one, we are horribly failing our children. 
When you are graduating less than half of your children, you 
have a real problem.
    We worked very hard. I am very pleased with the work that 
we did in ESSA, and I thank you, Mr. Robinson, for your kinds 
words about that, as we are looking for ways to return control 
to parents and to local school boards and to teachers, and all 
of us know the single most important thing--I am not 
disagreeing with my friend and colleague about the importance 
of early education--the single most important thing is a really 
good teacher.
    If you have a really good teacher, you will probably going 
to succeed in the classroom. If you do not, it does not matter 
whether it is a private school or public charter school or 
traditional public school. If you have poor teachers, then you 
are going to have poor results.
    All those things warrant our attention and work, and I 
appreciate the expertise of all the witnesses here today. Your 
testimony and your engagement in our questions was very, very 
helpful.
    There being no further business, the committee stands 
adjourned.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
